<html>
<title> - THE DEPARTMENT OF HOMELAND SECURITY FISCAL YEAR 2018 BUDGET REQUEST</title>
<body><pre>[Senate Hearing 115-293]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-293
 
  THE DEPARTMENT OF HOMELAND SECURITY FISCAL YEAR 2018 BUDGET REQUEST

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              JUNE 6, 2017

                               __________

        Available via the World Wide Web: http://www.fdsys.gov/

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
        
        
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
 
 
 
 
 
                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 27-392 PDF              WASHINGTON : 2018        
 
 
 
 
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
JOHN McCAIN, Arizona                 CLAIRE McCASKILL, Missouri
ROB PORTMAN, Ohio                    THOMAS R. CARPER, Delaware
RAND PAUL, Kentucky                  JON TESTER, Montana
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
MICHAEL B. ENZI, Wyoming             GARY C. PETERS, Michigan
JOHN HOEVEN, North Dakota            MAGGIE HASSAN, New Hampshire
STEVE DAINES, Montana                KAMALA D. HARRIS, California

                  Christopher R. Hixon, Staff Director
              Rebecca N. Nuzzi, Professional Staff Member
               Margaret E. Daum, Minority Staff Director
                 Jackson Eaton, Minority Senior Counsel
                     Laura W. Kilbride, Chief Clerk
                    Bonni Dinerstein, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     1
    Senator McCaskill............................................     2
    Senator Tester...............................................    10
    Senator Peters...............................................    13
    Senator Hassan...............................................    15
    Senator Paul.................................................    18
    Senator Hoeven...............................................    20
    Senator Harris...............................................    22
    Senator Carper...............................................    25
    Senator Heitkamp.............................................    28
    Senator Lankford.............................................    30
    Senator Daines...............................................    34
Prepared statements:
    Senator Johnson..............................................    41
    Senator McCaskill............................................    42

                               WITNESSES
                         Tuesday, June 6, 2017

Hon. John F. Kelly Secretary, U.S. Department of Homeland 
  Security
    Testimony....................................................     4
    Prepared statement...........................................    47

                                APPENDIX

Chart submitted by Senator Johnson...............................    53
NTEU statement for the Record....................................    55
Responses to post-hearing questions for the Record
    Mr. Kelly....................................................    58


  THE DEPARTMENT OF HOMELAND SECURITY FISCAL YEAR 2018 BUDGET REQUEST

                              ----------                              


                         TUESDAY, JUNE 6, 2017

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Ron Johnson, 
Chairman of the Committee, presiding.
    Present: Senators Johnson, Paul, Lankford, Hoeven, Daines, 
McCaskill, Carper, Tester, Heitkamp, Peters, Hassan, and 
Harris.

             OPENING STATEMENT OF CHAIRMAN JOHNSON

    Chairman Johnson. Good morning. This hearing will come to 
order.
    I would ask consent that my written statement be entered 
into the record.\1\ Without objection.
---------------------------------------------------------------------------
    \1-\ The prepared statement of Senator Johnson appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    I want to welcome Secretary John Kelly. This is a hearing 
on the Department of Homeland Security's Fiscal Year (FY) 2018 
budget. This is the third time that Secretary Kelly has 
appeared before this Committee this Congress, the second time 
as Secretary of the Department, and again, we welcome you and 
appreciate your service to this country, many years of it.
    In lieu of my opening statement, I just want to make a 
couple of comments. By vocation, I am an accountant, so I have 
gone through budget meetings many times.
    First, I want to just talk about the history of the budget 
of the Department of Homeland Security (DHS). We are not quite 
ready for the chart. When you take a look at total budget 
authority, when the Department was first stood up, the first 
fiscal year was 2004, and the Department's budget was--this is 
total budgetary authority, mandatory and discretionary--$36.5 
billion.
    Now, had that budget just grown by inflation, today's 
request would be a little under $50 billion--$48.25 billion. 
Instead, total budget authority is $70.6 billion, about a 93-
percent increase.
    Now, from my standpoint, that represents on a bipartisan 
fashion President Bush, President Obama, now President Trump 
realized that the threat environment that America faces has 
become more severe. It is growing, it is evolving, it is 
metastasizing, and the Department needs more resources to try 
and keep this homeland safe.
    And so, as much as I am concerned about the long-term 
budget situation of this country, the $20 trillion we are 
already in debt, we cannot be penny wise and pound foolish. I 
do not think I have seen an accurate assessment of how much 
economic loss we suffered because of September 11, 2001 (9/11). 
We have to do everything we possibly can, and let us face it, 
the defense of this Nation and the defense of our homeland is a 
top priority of government.
    So, I want to be completely supportive of the Secretary's 
request. Tough budget times, but we need to allocate the 
resources to keep this Nation and our homeland safe.
    The next point I would want to make is just the dramatic 
change we have had in terms of total apprehensions. We have a 
little chart\1\ here. What I have done, because we really only 
have 3 months' worth of history under the new Administration, I 
have just gone back and had my staff prepare a 3-month moving 
average of apprehensions along the Southwest border, and it is 
incredibly revealing.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    Prior to the last 3 months, on average we were apprehending 
a little more than 122,000 individuals coming to this country 
illegally. The last 3 months total, it was just under 56,000. 
In other words we are about 46 percent of the previous 4 or 5 
years' average. That is a pretty remarkable result. Since I 
have taken over this chairmanship and really been on this 
Committee looking at the problem of illegal entry into our 
Southwest border, I have been saying repeatedly that the first 
thing we need to do is be committed to securing our border and 
then eliminate the incentives for illegal immigration. I would 
say lack of enforcement of our immigration laws has been a huge 
incentive for people coming to this country. Under the new 
Administration, under the new Secretary, we have obviously 
committed to securing our border.
    I was a little concerned when people were taking credit for 
this reduction, I think, after 3 months. We will see what 
happens after 4 months. I think just that signal alone that we 
are committed to securing this border and we are going to 
enforce our laws has had a powerful effect, and I think we are 
seeing the results right now. So, again, I commend the 
Secretary for standing strong against severe criticism and 
actually enforcing the laws of this Nation.
    With that, I will turn it over to our Ranking Member, 
Senator McCaskill.

           OPENING STATEMENT OF SENATOR MCCASKILL\2\

    Senator McCaskill. Thank you, Mr. Chairman, and thank you, 
Secretary Kelly, for being here. You appeared before this 
Committee a couple of months ago for the first time after being 
confirmed, and just look at the developments that have occurred 
in the few months since then, where you have had to be all 
hands on deck for serious issues facing the national and 
homeland security.
---------------------------------------------------------------------------
    \2\ The prepared statement of Senator McCaskill appears in the 
Appendix on page 42.
---------------------------------------------------------------------------
    On May 11, you met with the airline industry executives 
about your concern about large electronic device bans in terms 
of international travel.
    On May 12, we had a ``ransomware'' cyber attack that struck 
more than 200,000 computers in 150 countries, shutting down 
auto production in France, police departments in India, and 
closing doctors' offices in Britain.
    And then, of course, tragically, on May 22, a terrorist 
suicide bomber killed 22 innocent children and adults in 
Manchester, England. And then, this past weekend, terrorists 
killed seven in London.
    These are just a few examples of why we are counting on you 
and why we respect the job that you have to do every day and 
how difficult it truly is.
    The importance of your work also speaks to the critical 
responsibility that this Committee has in providing oversight. 
I have never known of a government agency that worked better 
with less oversight. Asking hard questions is, of course, the 
way you do aggressive oversight, and I am really particularly 
pleased that you are not afraid to answer tough questions. It 
is kind of who you are. You have been that way throughout your 
career.
    In fact, I noticed in the speech you gave to the U.S. Coast 
Guard (USCG) cadets, and I will quote you here, ``Tell the 
truth to your seniors even though it is uncomfortable, even 
though they may not want to hear it. They deserve that. Tell 
the truth.''
    I know that you will continue to speak truth to power, and 
I look forward to your honest assessment of what we can do to 
help you in that regard.
    While none of the three terrorists who did the attack over 
this past weekend would have been impacted by the President's 
proposed travel ban, a lot of discussion in the United Kingdom 
(UK) is now about the Conservative Party's cuts in police 
resources over the last decade and how many fewer resources 
there were actually on the ground to try to prevent those 
terrorist attacks.
    I am concerned that the President's budget plans to cut 
critical Transportation Security Administration (TSA) programs 
at a time that we cannot afford to let up on these security 
measures. A large portion of this cut is taken from the Visible 
Intermodal Prevention and Response (VIPR) teams, which are 
deployed all over the country to provide critical assistance 
with securing airports, subways, and bus terminals--some of the 
most attractive soft targets for terrorists in our country. The 
President's budget aims to cut the VIPR teams from 31 down to 
just 8 teams to cover the entire country.
    The Urban Area Security Initiative (UASI), which has been a 
lifeline for major urban areas that have so many soft targets 
because of the large populations, those also have been cut.
    Additionally, the President's budget is going to completely 
eliminate the Law Enforcement Officer Reimbursement Program 
which provides assistance to local law enforcement agencies who 
help secure our airports. Hundreds of airports across the 
country take part in this program, and particularly for smaller 
airports, this assistance is critically important.
    The President's budget will also slash other DHS programs 
that provide critical security to our transportation systems. 
The Transit Security Grant Program (TSGP) will be cut in half. 
The Port Security Grant Program (PSGP) will be cut in half. The 
President is calling for a complete elimination of the Complex 
Coordinated Terrorist Attacks (CCTA) Grant Program. I am 
concerned that these priorities are not getting the attention 
they deserve, especially in light of what is going on around 
the world. I think we may be focused on a shiny object which 
has come to be known as the ``travel ban'' when instead we need 
to be focused on how many people we have, in your terminology, 
General, ``boots on the ground'' in terms of being able to 
identify, track, and prevent these terrorist attacks.
    We are being asked to fund additional Border Patrol agents 
and air and marine officers, but there is no provision in the 
budget for additional Customs and Border Protection (CBP) 
officers. And, the difference in terminology is very important 
because, as you know, Secretary Kelly, the majority of drugs 
and other contraband come into our country through the ports of 
entry (POEs), and the CBP officers are the ones responsible for 
finding them and stopping them. We cannot neglect our ports of 
entry as we try to increase resources in terms of Border Patrol 
and U.S. Immigration and Customs Enforcement (ICE) agents.
    So, I am glad you are here today, Secretary Kelly. There 
are a lot of important issues before us. I have a lot of 
questions. I know the rest of the Committee does, too. And, I 
cannot tell you how much it means to all of us that you are 
willing to come here, to both Democrats and Republicans, and 
answer our questions. I hope the rest of the Administration 
follows your example because I think you are setting a very 
good one.
    Chairman Johnson. Thank you, Senator McCaskill.
    It is the tradition of this Committee to swear in our 
witnesses, so if you would please rise and raise your right 
hand? Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Secretary Kelly. I do.
    Chairman Johnson. Please be seated.
    Secretary John F. Kelly is the fifth Secretary of Homeland 
Security. Prior to joining DHS, General Kelly served as 
commander of the U.S. Southern Command (USSOUTHCOM), where he 
worked closely with U.S. law enforcement and DHS personnel in a 
coordinated effort to combat the flow of drugs, people, and 
other threats against the homeland into the United States from 
across the Southern border. Secretary Kelly's career has 
included extensive service in the Marine Corps where he 
commanded Marine Forces Reserve and Marine Forces North and 
served as senior military assistant to two Secretaries of 
Defense, Secretary Robert Gates and Secretary Leon Panetta. 
Less than a year after his retirement from service, Secretary 
Kelly returned to serve the American people as Secretary of 
Homeland Security.
    General Kelly is a retired four-star general, a Gold Star 
parent. America could not be more appreciative and more 
fortunate to have you serving in this capacity, and we thank 
you for your service and look forward to your testimony.

 TESTIMONY OF THE HONORABLE JOHN F. KELLY,\1\ SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Secretary Kelly. Chairman Johnson, Ranking Member 
McCaskill, and distinguished Members of the Committee, every 
day the men and women of the Department of Homeland Security 
protect Americans from the threats we face, and so it is a 
great pleasure to appear before you today to talk about the 
tremendous men and women of the Department and the critical 
missions they carry out in service of our America every day and 
night, 24/7/365.
---------------------------------------------------------------------------
    \1\ The prepared statement of Secretary Kelly appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    I believe anyone who fully understands the fundamental role 
of our government also believes that the Federal Government's 
responsibility every day begins and ends with the protection of 
the homeland and the security of our people. No other mission 
is as important, no other consideration more pressing. None.
    The President's Fiscal Year 2018 budget request for the 
Department will make it possible for us to continue and expand 
in many ways on our ability to protect our Nation and its 
people. The world is a different place today. We can no longer 
think in terms of defense over there but, rather, must think in 
terms of the security overall of the homeland, across the 
numerous domains of a potential attack and defense.
    The Department of Homeland Security is making a difference 
in fighting the home game while the Department of Defense (DOD) 
fights the away game. And, together with and because of the 
dedication and effective interagency integration with the 
Director of National Intelligene (DNI), the Central 
Intelligence Agency (CIA), the National Counterterrorism Center 
(NCTC), the Federal Bureau of Investigation (FBI), the National 
Security Agency (NSA), the Drug Enforcement Administration 
(DEA), the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF), and over a million State and local and tribal 
enforcement professionals, America today is safe, secure, and 
prepared in a way that most could not have envisioned the day 
before 9/11. But, the plots to attack the Nation are numerous, 
their perpetrators relentless. But, we need a fully funded 
budget that matches our mission. No more continuing resolutions 
(CR). And, I think this budget does that.
    The President's Fiscal Year 2018 budget requests $44.1 
billion in net discretionary funding for the Department of 
Homeland Security. It also requests $7.4 billion to finance the 
cost of emergencies and major disasters in Federal Emergency 
Management Agency (FEMA's) Disaster Relief Fund (DRF).
    When you are talking about numbers like these, it is easy 
to lose sight of what is behind each dollar. But, when you get 
right down to it, behind each and every dollar are hardworking 
men and women who have dedicated their careers and in many ways 
risked their lives to protect the American people. Every dollar 
invested in the men and women of DHS and every dollar invested 
in the tools, infrastructure, equipment, and training they need 
to get the job done is an investment in prosperity, freedom, 
and the rule of law.
    Above all, it is investment in the security of the American 
people, and as far as I am concerned, recent events show you 
cannot invest too much in security. The terrorist attacks on 
innocent civilians in Kabul, Cairo, South Asia, Manchester, and 
now London are horrific reminders of the dangers we face 
globally.
    They also illustrate the need to do everything we can to 
keep our people safe. That means getting better about verifying 
identity, making sure people are who they say they are, and 
working with our international partners to raise their 
awareness and raise their defenses, and force them to do so, if 
need be, to at least operate at the levels that we work at.
    Domestically, one of the most important enhancements to 
this effort is the REAL ID Initiative, an enhancement passed 
into law 12 years ago by the U.S. Congress, one which most of 
our States and territories have taken seriously and have 
already adopted. Many others are working hard at compliance.
    In those 12 years, some elected or appointed State and 
Federal positions who have the fundamental and sacred 
responsibility to safeguard the Nation have chosen to drag 
their feet or even ignore the law passed by Congress. I will 
not. REAL ID will make Americans safer. It already is. REAL ID 
will soon be enforced at our airports, land ports of entry, and 
all Federal facilities. And, it is a critically important 9/11 
Commission recommendation that others have been willing to 
ignore, but which I will ensure is implemented on schedule, 
with no extension for States that are not taking the effort 
seriously.
    For those States and territories that cannot or will not 
make the January 2018 deadline, they should encourage now their 
citizens to acquire other forms of ID compliant with the REAL 
ID law, like passports, available, of course, from the State 
Department.
    We need to prevent bad actors, regardless of religion, 
race, or nationality, from entering our country. In recent 
years, we have witnessed an unprecedented spike in terrorist 
travel. There are more terrorist hot spots and foot soldiers 
now than almost at any time in modern history. In Syria and 
Iraq, for instance, we have thousands of jihadist fighters that 
have converged from more than 120 countries. As our superb 
military machine, acting in coalition with and leading many 
other like-minded partners, as they succeed on the battlefield 
in the caliphate in Iraq and Syria, these jihadi fighters are 
returning home to Europe, South Asia, Southeast Asia, 
Australia, and even the Western hemisphere. And, who knows what 
they are up to? But, we can guess. They are heading to what 
they think are safe havens to continue their plotting and 
otherwise advance their toxic ideology of hate, death, and 
intolerance wherever they are allowed to hide. We expect that 
some will look to travel to the United States to carry out 
attacks.
    With this context in mind, the President has issued clear 
direction in the form of an Executive Order (EO) to the entire 
Executive Branch to prevent the entry of aliens who seek to do 
us harm. But, the current court injunction, of course, prevents 
us from taking steps right now to improve the security of the 
homeland until we see how that court action plays out. While 
some discuss, debate, and argue the name, title, or label that 
best describes the President's EO, professional men and women 
like me are actually in the business of implementing the 
President's intent to secure the Nation, and we are doing that. 
We will let the chattering class and self-appointed critics 
talk about the name. I just hope Congress sees the wisdom in 
what the President is trying to do to protect America and its 
people and that Congress is willing to work with those of us in 
the business of securing the Nation. And, it has been my 
experience in less than 4 months on the job that Congress is, 
in fact, committed to that.
    The court's injunction has prevented us from implementing a 
temporary ban on travel by aliens from six countries that are 
in States of civil war, are State sponsors of terrorism, and 
are basically failed States. They are the same countries 
identified by Congress and previous Administration in 2015 as 
nations of great concern.
    At the time, the expectation was that those in the business 
of securing the Nation lawfully would focus additional 
attention on these nations and others in similar circumstances 
for supplementary and accurate vetting. It has nothing to do 
with religion or skin color or the way they live their lives, 
but all about security for the United States and nothing else.
    These are countries that are either unable or unwilling to 
help us validate the identities and backgrounds of persons 
within their borders. I can tell you right now, because of the 
injunctions I am not fully confident that we are doing the best 
we can to weed out potential wrongdoers from these locations. 
The injunction also prevents me from actually looking into the 
information that we need from each country to conduct proper 
screening, not just from the six countries identified in the 
Executive Order but from every country across the globe. It 
also prevents me from conducting a review under the Executive 
Order with the goal of improving the security of our refugee 
program.
    Bottom line, I have been enjoined from doing these things 
that I know would make America safe, and I anxiously await the 
court to complete its action one way or the other so I can get 
to work.
    The men and women of DHS will do everything we can and 
always within the law to keep the American people safe. But, 
the delay has prevented us from doing what I and those most 
familiar with the reality of the threats we face believe we 
need to do to protect our homeland.
    Again, sir, I appreciate the opportunity to appear before 
the Committee today, and I thank you for your continued support 
and the Committee's continued support for the great men and 
women of the Department and the mission we take so seriously. I 
remain committed to working with Congress and protecting the 
American people. I have made changes within the organization 
since I have been the Department head to do exactly that, to 
increase responsiveness, availability of witnesses, and we have 
done all of that in a big way.
    I am glad to answer any questions you may have, sir. Thank 
you.
    Chairman Johnson. Thank you, Secretary Kelly.
    I really appreciate the attendance by my colleagues. I know 
everybody has tight schedules, so I am going to defer my 
questioning so people have their opportunities, and I will 
start out with Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I appreciate the note you ended on, Secretary Kelly, and 
while I condemn the leak and the person who leaked it, we now 
have in the public domain verified information that the 
Russians made an aggressive attempt to access not only a vendor 
of voter software in this country but also a number of States, 
the voter file databases in the month prior to our election.
    In any other circumstances, this would be an earthquake, 
but because of everything else that is going on, I do not think 
enough attention has been given to something that is your 
responsibility as the Secretary of Homeland Security, and that 
is, critical infrastructure, including the election systems.
    I have asked for a number of pieces of information. This is 
one area where we have not gotten a response yet. I do 
appreciate that you all have not frozen us out. Many of my 
colleagues are being frozen out across the government. You have 
not frozen us out, and I am deeply grateful for that. I am 
anxious to get more information about what we know about these 
attempts. Whether or not they accessed the tabulation, it is 
clear they were trying to get into voter files. And, I do not 
think they were going there to try to just hang out.
    Imagine the disruption--we spend a lot of time in this 
country talking about voter ID. Imagine the disruption if 
thousands of people showed up to vote and their names were no 
longer on the voter files. What would we do? How would we 
address that in terms of fairness and open and free elections?
    So, I guess my question to you is: Are you deferring the 
investigation of this to the FBI? Or is the Department actually 
actively engaged in investigating the penetration or the 
attempts to penetrate the voter files in this country 
immediately before the election by the Russian Government?
    Secretary Kelly. Thank you, Senator. You know me, I am not 
going to dodge any question relative to anything that anyone in 

the U.S. Congress asks. I would say, though, up front I would 
not be--because of the allegations and the things that have 
been allegedly released are so highly classified, I would not 
want to kind of confirm or deny anything in there. I think we 
just have to wait for the investigation.
    I am happy to come over or send people over to talk to you, 
to the level that they can, about what actually took place, and 
I believe certainly Members of Congress deserve that, given the 
levels of classification. But, I share your concern. I do not 
disagree with anything you said relative to the sanctity of our 
voting process. Clearly, it should be an interagency 
investigation, and that is taking place. DHS will be part of 
that.
    As you know, just prior to his leaving, Jeh Johnson went 
out and declared that the voting infrastructure was, in fact, 
critical infrastructure. I have had a large amount of pushback 
on that from States, many Members of Congress. It was done 
before I took over. We are looking at that, trying to help the 
States understand what that means, and it is voluntary 
entirely. We are here to help, so to speak. But, I am meeting 
with the State homeland security professionals, I think next 
week here in the city, and I am going to put that question to 
them. Should we back off on that? I do not believe we should, 
but should we back off on that? Do you see us as partners and 
helpers in this to help, inside the States and help you make 
sure that your systems are protected? But, there is nothing 
more fundamental to our democracy than voting.
    Senator McCaskill. Well, in following up with that, I just 
hope that you convey--I mean, it would be one thing for the 
States to say we do not want the Federal Government to be--I 
like that our elections are decentralized. I do not think the 
Federal Government should be telling each State how to run 
their elections or what vendors to use.
    On the other hand, this was Russia.
    Secretary Kelly. Right.
    Senator McCaskill. I mean, this was Russia. This was not, 
some hacker at a university trying to screw around with one 
individual State. This was an international attempt to impact 
the elections of the United States of America. So, it really 
would be, I think, distressing if the United States would then 
pull back from the ability to help States protect these voter 
files. And, you all are going to be in the best position to be 
able to do that.
    So, is someone from the Department working in the 
investigation over this intrusion into our data files, our 
voter data files?
    Secretary Kelly. Yes, Senator, we are involved.
    Senator McCaskill. OK. The other area I wanted to talk 
about and give you a chance to respond to the things I said in 
my opening statement, about cutting funding for the VIPR 
Program and for the Law Enforcement Officer Reimbursement 
Program, the Urban Area grants that are so important to large 
cities in this country in terms of protecting soft targets for 
terrorism. Could you address those cuts and if you would be OK 
with the fact that we would maybe want to restore those cuts?
    Secretary Kelly. I would like to comment for sure.
    The first thing I kind of referenced it a little bit in my 
opening statement. We are as a Nation in a different place 
entirely--from a law enforcement and local protection point of 
view, we are in a different place today than we were 15 years 
ago when 9/11 first took place. Whether it is New York City and 
the largest non-Federal law enforcement organization in the 
country, the New York City Police Department, or small towns 
and counties with very few professionals, this kind of 
thinking, this antiterrorism, counterterrorism is in the 
Deoxyribonucleic acid (DNA). We have certainly and should have 
right after 9/11 for years afterwards, I think to the tune now 
of $45 billion in 15 years, helped States, whether it was 
acquire equipment, hire people, DOD has a program where they 
give excess equipment away. You know all of that.
    So, we are in a different place today. New York City Police 
Department, I was just up there last week and sat with them for 
several hours getting their concept of how they protect the 
city from a terrorism point of view, and I do not think there 
is anyone better in the world.
    So, in a perfect world, I would love to fund everything, 
but 15 years on, we are in a different place locally and 
federally in terms of protecting the homeland. Again, in a 
perfect world, I would love to fund everything.
    Senator McCaskill. OK. Well, I understand the point you are 
making; although I will say that I do not think any of us would 
think that the threat of a terrorist attack is less today than 
it was 15 years ago. And, I can speak for many of these 
communities that are struggling with enough officers now. St. 
Louis is a good example where we have a serious crime problem, 
and in order to have the resources they need to cover the 
airport, to do some of the things that this money allows them 
to do is really important. So, I am hoping that we can work 
together and figure that out.
    Secretary Kelly. Senator, if I could respond, I would not 
disagree at all, and the threat since 9/11 is, I think--certain 
types of threats are much more than they were during 9/11, much 
more metastasized, some of it local, some of it potentially 
from outside the country. I am with you 1,000 percent. But, the 
one fundamental difference is we have different State, local, 
and Federal focus on this, and training and equipment.
    Senator McCaskill. We do.
    Secretary Kelly. Yes, ma'am.
    Chairman Johnson. Senator Tester.

              OPENING STATEMENT OF SENATOR TESTER

    Senator Tester. Thank you, Mr. Chairman.
    Once again, thank you for being here, Secretary Kelly. I 
think that you have bipartisan support on this Committee 
because of your track record, and you were in front of the 
Subcommittee on Homeland Security here a few weeks back, and I 
appreciate your testimony there.
    Since then, it was reported that the President's son-in-
law, Jared Kushner, attempted to establish secret back-channel 
communications with the Kremlin through Russian ambassador 
Sergey Kislyak. You were asked about these back-channel 
communications with Russia on TV, and you supported Kushner 
setting up back-channel communications. The White House has 
been mum about these communications. I believe that these 
communications did occur. Whether there was anything classified 
or not that went through, I think this is a big deal because we 
are talking about Russia.
    I looked up your age, and I thought we might be similar in 
age, and to your credit, you are a little bit older than me, 
but you look younger. OK, Mr. Secretary. But, you remember 
Russia in the height of the cold war. I do not trust them any 
more today than I did when I was a first grader in school. And, 
to have somebody this close to the President setting up back 
channels before they were in office through a Russian embassy 
is very disturbing to me if, in fact, this happened.
    And so, have you spoken to Mr. Kushner about this issue?
    Secretary Kelly. I have not.
    Senator Tester. OK. So, has anybody spoken to him about 
this issue in your Department or to find out if this happened 
and what kind of information was relayed? We just heard the 
Ranking Member talk about potential impacts on elections. We 
have talked about potential money flowing to the Trump business 
enterprise. There is all sorts of smoke here that we need to 
get to the bottom of, and so I am curious about that.
    Secretary Kelly. I hope no one in my Department has spoken 
to him. That would be inappropriate. I am the interaction with 
the White House as a general rule. He does not work like many 
of the White House staff do not work directly.
    But, if I could, sir, on the back channel?
    Senator Tester. Yes, go ahead.
    Secretary Kelly. Back-channel communications, I mean, I had 
back-channel communications myself through religious leaders in 
the United States to leaders in, say, Latin America. It is one 
thing if I call the President of a country and have a 
conversation with him. It is different if it comes from another 
direction. It is just the reality of the way things work. I 
would just offer to you, sir, that we have to make the 
assumption--and I will--that Jared Kushner is a great American, 
he is a decent American. He has a security clearance at the 
highest level, as I understand it.
    Senator Tester. He did not then, though, did he?
    Secretary Kelly. I believe he should have had.
    Senator Tester. OK.
    Secretary Kelly. Now, if he was trying to open back-channel 
communications to pass information through that back channel to 
get to Putin or anyone else over there to say, ``Hey, look, we 
are concerned about this,'' or ``This is what you might want to 
consider doing,'' because if it is official, then it is a whole 
different dynamic.
    Senator Tester. I got you. But the question is: There are 
no red flags that come up for you at all on this?
    Secretary Kelly. Not at the time. I did not know about it. 
Since it has been reported, back channels are the normal--are 
in the course of normal interactions with other countries. Very 
common.
    Senator Tester. Can you tell me if it is also normal to go 
to an embassy of a country that has been our foe since World 
War II and do this kind--is that normal?
    Secretary Kelly. I do not know if that was the case, but if 
that is the case, I am not so sure it is normal, but certainly 
it would be one way to communicate through the back channel.
    Senator Tester. So, if I were to do that, you guys would 
think that is OK? I have a security clearance. If I were to 
walk over to an embassy and say, ``Hey, look, I want to have a 
back-channel communication, and, by the way, even though it 
appears that nobody in the United States will know what I am 
talking about, and this is why I did it, it is OK because I am 
not''--is that--I mean, really?
    Secretary Kelly. Senator, if you went over to--whether you 
met them here in the building or you----
    Senator Tester. Went to the Russian Embassy.
    Secretary Kelly [continuing]. Went to the embassy and 
said----
    ``Let me tell you something, as a Senator from the great 
State of Montana and a Member of these committees, this is 
B.S., what you are doing and you better stop it,'' or whatever, 
that is essentially a back-channel communication.
    Senator Tester. Well, I would just say this: I appreciate 
your faith in the system. I am going to tell you that whether 
classified information was delivered or not, I find this 
unacceptable. I just do. To have somebody who is a son-in-law 
to the President that goes in and sets up with Russia, the 
country that I was told to hide under the desk when the nuclear 
bombs came--what the hell good that would do, I do not know--
when I was in first grade. I just think if we do not get to the 
bottom of what is going on and what is happening--we have 
talked about the Russians, we have talked about money. There is 
all sorts of stuff going on here. And, as the Ranking Member 
said, there is so much going on here that we do not know which 
direction to have the investigation happen. If it needs to be 
you, you have the credentials, by the way, and you have the 
respect, I believe, on this Committee and probably in Congress 
to really find out what the hell is going on, because it does 
not make me sleep better at night, I will just tell you. And, 
if it does not make me sleep better at night, your eyes are 
probably wide open on this.
    Secretary Kelly. Senator, I think, again, I think we have 
to make the assumption that----
    Senator Tester. But, do you not think we should ensure that 
that assumption is correct?
    Secretary Kelly. Oh, sure, and I think there are numerous 
investigations----
    Senator Tester. But, nobody is doing that.
    Secretary Kelly. I think there are numerous investigations 
that are looking into this. I mean, I think it is part of the 
Bob Mueller investigation. I think there are a number of 
Congressional committees looking into it.
    Senator Tester. OK. Another topic. I just want to echo what 
the Ranking Member said. There have been folks that have been 
frozen out by different agencies. I think that is 
inappropriate. Whether you are on that Committee or whether you 
are a Member of Congress, oversight is our big job. I 
appreciate you not doing that, and I hope that policy 
continues. I would assume that that is going to be the case, 
correct?
    Secretary Kelly. Yes, sir. And, if I could comment?
    Senator Tester. Yes.
    Secretary Kelly. As I was going through the process of 
confirmation, those Senators and House Members that gave me the 
courtesy of an office call prior to the hearing, the one single 
thing I heard repeatedly was how nonresponsive this Department, 
my Department, our Department, was prior to. I would tell you, 
since I have been running the show, to the degree that I think 
I am running it, we have over 37 appearances in Congressional 
hearings, 57 witnesses, 973 Hill engagements. Prior to that, it 
was a tiny fraction. In fact, I was just talking to Senator 
Grassley, who was the biggest critic of my Department relative 
to Congressional engagement, and I was on an open phone with 
him and his staff and asked him how we were doing, and he gave 
me nothing but high marks. We are going to make that better.
    First of all, we are leaning forward, and whether it is--
regardless of who the letter comes from--and it does not have 
to just come from a Ranking Member or Chairman. We will respond 
to any Congressional inquiry.
    Senator Tester. Thank you.
    Secretary Kelly. If we cannot get to it right away--some of 
the letters, as you might imagine, are lengthy and in need of 
great detail.
    Senator McCaskill. Too lengthy, sometimes.
    Secretary Kelly. My folks will call. If it falls into the 
category we cannot get to it real quick and respond, we will 
call the staff and say, ``Hey, we got it, and we are on it, but 
it will be some weeks or even perhaps months before we can get 
it to you.'' If need be, we will send a letter, or I will call 
the Member and say, ``Boy, this is a big one. I am going to 
have to set some people to work on this. It will be a while, 
but we are on it.''
    And, I think in every case thus far, certainly in the last 
90 days--60 days, anyways, we are getting high marks. So, I 
will not freeze you out, sir.
    Senator Tester. Thank you, Mr. Secretary, and I look 
forward to seeing you in Montana.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Peters.

              OPENING STATEMENT OF SENATOR PETERS

    Senator Peters. Thank you, Mr. Chairman. And, thank you, 
Secretary Kelly, for being here today, and I would like to once 
again thank you for your trip to Detroit. I think it was well 
received by the community, and I appreciate you taking the 
effort to come out to my State.
    Secretary Kelly, I am particularly concerned about some of 
the proposed cuts to several FEMA preparedness grant programs 
that are in the President's budget. Our first responders in 
Michigan use the Urban Area Security Initiative and State 
Homeland Security Program funding to support lifesaving 
efforts, including bomb search and rescue equipment, simulation 
drills, maintenance of local early warning, and emergency 
response centers.
    The proposed 25-percent cost share matching requirement for 
local governments would prevent a number of these efforts 
because, quite frankly, many of these departments simply do not 
have the money available for that cost share. And, I know you 
think it is important that there is skin in the game. You have 
used that term frequently, that our local communities have some 
cash as they are in these matching programs.
    But, given the fact that we are facing lone-wolf attacks 
and a lot of changes in how our domestic homeland security 
folks have to deal with situations, do you believe--how are 
they able to make the appropriate investments to make sure that 
they are equipped for these types of attacks? Are there some 
other alternatives, or are there ways that we could perhaps 
adjust that figure in the budget?
    Secretary Kelly. Yes, Senator, referencing a couple of my 
previous comments in this hearing as well as in the past, our 
local law enforcement--city, State, county, big city, small 
city--they are in a different place today than they were right 
after 9/11, and we all know that. They are just much better at 
what they do. Their head is in the game. They have skin in the 
game. The grants over the years have to a degree caused that to 
happen because we have given additional funding to the various 
municipalities to improve themselves.
    We are at the point now where much of that effort is 
already accomplished, and we are in the sustainment phase; that 
is to say, States and local governments now need to sustain 
what we have helped them, the points at which and the equipment 
and all that we have helped them get to, that combined with 
there are not unlimited resources. One of the things you 
mentioned, lone-wolf attacks, a lone wolf--and you know this, 
and I beg your forgiveness. I do not mean to lecture--not 
lecture, but to go too low in terms of my response. But, the 
thing we are facing with the lone-wolf attacks is a different 
dynamic. New York City is at risk. Detroit is at risk. Some 
tiny little town in the middle of Arkansas is at risk. Every 
small town, big town, is at risk from this lone-wolf stuff.
    I do not know, as hard as I have thought about it, if there 
is a way to prevent it, predict it, get our arms around it 
other than local cops and sheriffs getting into people's 
business legally, outreach and all of that kind of thing. But, 
my point is an unlimited amount of money parceled out to every 
big city, small municipality in America might prevent a lone-
wolf attack. I do not know if it will, but it might. But, of 
course, we do not have an unlimited amount of money.
    We make these decisions in many ways based on formulas that 
we receive from the Congress. We plug in numbers and try to 
somehow evaluate what might be a logical target, not 
necessarily for the lone wolfers. They are everywhere. But, a 
logical target or a target that might be at higher risk, say 
New York City, than another municipality, particularly from an 
external terrorist.
    Senator Peters. Well, I understand that, and I appreciate 
the fact that this is a big challenge. We do not have unlimited 
amounts of money. But, I want to just challenge a little bit of 
the assessment that other communities are adequately prepared 
for it. Certainly we have come a long way. As you mentioned, we 
have come a long way and provided those resources. But, I am 
certainly hearing from my departments in Michigan there are 
still unmet needs that they think are pretty critical. 
Resources are tight for them as well, and we still have a ways 
to go. So, hopefully we can revisit some of those matching 
programs to make sure that those communities that may be at the 
highest risk but also have a fairly challenging budget 
situation in that community, that we are able to work something 
out. I would appreciate having further discussion in that area.
    Also, Mr. Secretary, the first travel ban Executive Order 
required the Secretary of Homeland Security to submit a report 
in 30 days that provides a list of countries that do not 
provide adequate information for vetting, within 30 days of the 
date of this order, and it is my understanding the district 
court in Seattle did not stay that aspect of the order.
    The second Executive Order required the exact same report 
within 20 days of its effective day, and as you know, aside 
from Sections 2 and 6, the remainder of the revised Executive 
Order is not affected by any subsequent injunctions. So, that 
means as of today, May 6, 2017, the report required by the 
first Executive Order is overdue by over 60 days, more than 
twice as much time as required, and a report required by the 
second Executive Order is overdue by about 30 days.
    Mr. Secretary, did you begin the report reviewing screening 
procedures that the initial Executive Order required?
    Secretary Kelly. Senator, we have been very cautious, extra 
cautious, in getting anywhere near where the court might 
consider we are not following their instructions. I would have 
to get back to 
you on exactly where we are on the reports. One of the things 
that--regardless of whether the court has told us not to do, we 
have looked for things that we could do. As an example, 
thinking about other countries but not studying it, and looking 
at vetting procedures, additional vetting, extreme vetting, but 
not studying it.
    Some of the procedures would be very obvious, some of the 
countries very obvious. But, if you do not mind, I would like 
to get back to you on the question.
    Senator Peters. Well, I appreciate it because it seems to 
me a court injunction is not going to limit you from doing your 
own internal reviews of policies and procedures. That goes----
    Secretary Kelly. I actually have lawyers telling me, sir, 
that we are too close on some of these issues, not necessarily 
ones you have addressed, but on some of these issues, and it is 
best just to show extra good faith and not getting too close to 
it.
    Senator Peters. Very good. Well, I would appreciate further 
discussions on that as well.
    Secretary Kelly. Sure.
    Senator Peters. Thank you, Mr. Secretary.
    Secretary Kelly. Yes, sir.
    Chairman Johnson. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman and Ranking Member. 
And, good morning, Secretary Kelly, and thank you for being 
here. Like all of my colleagues, I appreciate your willingness 
to have this conversation with us.
    Last week, I visited our CBP base covering New Hampshire's 
Northern border with Canada. The men and women at the station 
are working overtime and on a shoestring budget to secure our 
Northern border, including intercepting human traffickers and 
preventing narcotic smuggling.
    I think they are doing an incredible job with truly limited 
resources, but they really need more support. And, while CBP is 
getting a huge boost in their funding in this budget, we know 
that this funding is not going to be used to shore up the 
Northern border. And, it is not just CBP's Northern border 
forces--they are not the only ones getting shorted in this 
budget, as some of the other Members here have indicated. TSA, 
in charge of protecting our aviation borders and stopping 
terrorists from taking down our aviation system, is facing a 
sizable cut to some of its key programs and renewed aviation 
threats. And, the Coast Guard protects our Nation's largest 
border, but despite its aging maritime assets, rundown and, 
frankly, outdated facilities, the Coast Guard is also getting 
cut.
    So, this budget tells me that your priority is to secure 
the Southern border and that fighting off all other threats is 
secondary. I certainly support securing the Southern border and 
reducing narcotics trafficking, but this budget presents 
really, I think, a false choice. We can and should secure the 
Southern border and also secure our other land, sea, and air 
borders as well.
    So, what is your plan for making sure that our Northern 
border forces, TSA, and the Coast Guard get the funding 
increases they so desperately need?
    Secretary Kelly. Well, Senator, the good news is from my 
perspective, and certainly what I have learned in the last 
going on 4 months, is we have two great partners in this effort 
to secure our borders: Canada to the north, obviously, and 
Mexico to the south. The bad news for Mexico and the Southwest 
border is largely because of our drug demand, an incredibly 
efficient network has developed that stretches, frankly, from 
around the world, goes through the Western hemisphere, the 
Caribbean, up the Central American isthmus, Mexico, into the 
United States. So, that is where the overwhelming amount of 
drugs, illegal aliens, special interest aliens come through 
because of that network. Not because Mexico is not a partner, 
not because they are not great friends, but because they are 
unfortunately astride a network or a land mass or a 
geographical feature that the drug traffickers have decided 
that that is how they are coming.
    Senator Hassan. And, Secretary Kelly, I am well aware of 
that. I am also well aware of how able, nimble, evolving, and 
creative these cartels and networks are. And so, it just seems 
to me a totally false choice to leave a border inviting and 
open, relatively open. It may disrupt things on the Southwest 
border for a time, but it does not do us any good if there are 
other ports of entry.
    You talk to the Coast Guard right now, and they are not 
able to intervene in some of the narcotics traffic on our seas 
because they simply do not have the resources, even when they 
know that they are there. And, that would be a very important 
aspect of our war on this drug epidemic we have.
    Secretary Kelly. Well, you are right on the Northern border 
versus the Southern border. But, for right now, the Southern 
border is the problem. If we were to seal the Southern border--
and I believe we can get--I know we will get control of our 
Southern border. That does not mean seal it but control it, go 
from where we were several months ago, almost no control, to 
some pretty good control. They will, given the drug demand in 
the United States, they will figure other ways to get through. 
We have to watch that and react to it.
    Senator Hassan. And, we also have to keep people in the 
northern part of our country safe. And so, one of the things--
that is not a very reassuring answer to the people of New 
Hampshire or the other Northern border States.
    I want to move on to another issue that we discussed the 
last time you were here. I asked you about an innovative way to 
protect DHS' systems from cyber attacks and the possible 
application of the Pentagon's pilot program to use hackers to 
probe the Pentagon's networks for vulnerabilities. The pilot 
program was called ``Hack the Pentagon,'' and it has been very 
successful. In the few weeks that the program ran, the Pentagon 
collected 138 previously undiscovered vulnerabilities. Since 
then, the Pentagon has expanded the program, and the General 
Service Administration (GSA) has announced an effort to launch 
a similar program.
    A little over a week ago, Senator Portman and I, along with 
others on this Committee, introduced the Hack DHS Act. That 
bill would instruct DHS to hold a pilot program to allow 
hackers to probe DHS' systems for vulnerabilities and report 
them to DHS. In return, DHS would pay the hackers a small sum 
of money for each vulnerability they discover and report. As my 
friend Senator Harris said, we will fight hackers with hackers.
    So, as you can see, a lot has happened since you were last 
here. At the last hearing, you promised to look into whether 
the Pentagon's pilot program would be a fit for DHS. So, I am 
just asking you today that you take a hard look at this bill. 
There has also been a similar bill introduced today in the 
House by Representatives Lieu and Taylor. And so, would you 
just commit to taking a hard look at those bills and seeing 
what the Department thinks of them?
    Secretary Kelly. Senator, I absolutely will, and probably 
will not wait to see if this law passes.
    Senator Hassan. OK. Thank you.
    Lastly, I have two more points. I do not want to reiterate 
everything Senator Peters said, but I will just let you know, 
as a former Governor who is in a State with lots of volunteer 
first responder forces, part-time police departments, and 
ongoing efforts to keep our State and do our part for our 
country's national security safe, too, the elimination or 
severe cuts to critical State aid and grant programs for 
everything from airport security to other kinds of security 
efforts to fight homegrown terrorism, you have to train 
ongoing. You need ongoing resources. We have an enemy who is 
evolving, and the notion that just because we have made 
improvements since 9/11 we can absorb this kind of drastic cut 
I think is just a really false notion. And, I would tell you 
that, having talked with my homeland security people in New 
Hampshire about the myriad of threats we are facing, the cuts 
here are really troubling.
    And last, if I may, Mr. Chairman, I just would encourage--
and maybe we can talk offline about the President's Opioid 
Commission. I understand that the first interim report is due 
shortly. We just have not heard anything about it. I know you 
are on the Commission, and I would love to talk later about 
that.
    Secretary Kelly. Well, on that, if I could just have a 
minute, Mr. Chairman, to respond? Myself, Rex Tillerson, you 
may not have seen us with the Mexicans a couple of weeks ago, 
they are on board with our attempts to not only safeguard the 
Southwest border, their Northern border, but also get at the 
demand problem. I know Secretary Tillerson, Secretary Price, 
myself, and the head of the Office of National Drug Control 
Policy (ONDCP), who I have spoken to--and I like to think 
changed his attitude toward what his job is going forward--we 
will get together and put some real energy behind the demand 
reduction to include, obviously, the opioids. But, I think a 
big part of it, I think you will agree, I think we spoke about 
this, is this overmedicated society that we suffer from in the 
United States that just suggests to people all they have to do 
is put something up their nose, in their mouth, or in their arm 
to solve all their problems.
    Senator Hassan. And, one of the things that is going to be 
really important and really concerning, obviously, is the 
Administration's support for eliminating things like Medicaid 
expansion and requirements that insurance companies treat 
addiction, which gets at the overmedication and the 
overprescribing issue. So, I look forward to talking with you 
more about it. Thank you.
    Chairman Johnson. Thank you, Senator Hassan.
    I will again just point out, based on the baseline budget 
in 2004, it was $36.5 billion. Had it grown by inflation, it 
would be about $48 billion. Instead, it is about $70 billion. 
So, $22 billion more growth in spending for this Department 
because of those evolving threats. So, I just want to point out 
what the reality is in terms of the increase in spending over 
the last, whatever that is, 13 years.
    Senator Hassan. And, if I may--and I appreciate that, Mr. 
Chairman--my concern is that we are only as strong as our 
weakest link in this country.
    Chairman Johnson. Again, we do not want to be penny wise 
and pound foolish, but we have dramatically increased the 
resources of this Department.Senator Paul.

               OPENING STATEMENT OF SENATOR PAUL

    Senator Paul. Secretary Kelly, thanks for your testimony. 
The last time you were here, we talked about U.S. citizens 
coming across the border and being threatened with non-entry or 
detention if they did not divulge the contents of their phone, 
all of the contents of their phone, and your response was, ``I 
just do not believe we are doing it.'' So, we asked some 
questions in writing, and we are still waiting on the response. 
That has been about 6 weeks or so. But, I thought I would list 
for you a couple of the public episodes of this happening.
    This year, a NASA engineer and a U.S. citizen was pulled 
aside after coming back from Chile. They demanded the PIN for 
his phone, and they handed him a form that explained how CBP 
had the right to copy the contents of his phone, all the 
contents of his phone. He recalled that the form indicated that 
his participation in the search was mandatory and it threatened 
detention and/or seizure if he did not comply. The phone, 
ironically, was already a government phone. It was a NASA phone 
that they were wanting to search.
    Two citizens were stopped on return from Canada. NBC did an 
investigation of 25 different cases of U.S. citizens being told 
to turn over their phones, unlock them, or provide passwords.
    A U.S. citizen was taken off of a flight in L.A., 
handcuffed and released after a Homeland Security agent looked 
through his phone for 15 minutes.
    A U.S. citizen journalist also had their phone taken.
    So, I guess my question is: Is your answer still, ``I just 
do not believe we are doing it?''
    Secretary Kelly. My answer is we do not do it routinely 
unless there is a reason why, so that is a change. We do it 
whether they are citizens or non-citizens coming in. I think of 
the million or so people that come in the country, half of 1 
percent is checked.
    Now, typically, the officers--and always according to the 
law. Now, typically, the officers who are engaged in the front-
line defense at the ports of entry, in their questioning of 
individuals for whatever has tipped them off, will cause them 
to have certain conversations, go down certain avenues of--not 
interrogation but, again, conversation. In the event of some 
indicator that perhaps the individual is returning from, sex 
tourism or something like that, we do catch a fair number of 
people in that regard. But, again, Senator, very seldom done 
and always for a reason and always within the law.
    Senator Paul. So, the answer now is not, ``I just do not 
believe we are doing it.'' It is, ``We are doing it, and not 
that often.''
    Secretary Kelly. Right.
    Senator Paul. The policy they are being threatened with, 
though, is detention? How long will they be detained if they do 
not give you the PIN to their phone?
    Secretary Kelly. It is a relatively short period of time. 
It is generally called ``secondary'' where they are follow-up 
questions. Once a decision might be made to put them into some 
legal justice system, then that is----
    Senator Paul. But, to you it is still--you are just fine 
with the policy that arbitrarily takes someone's phone, says 
you cannot come back into your own country?
    Secretary Kelly. Not arbitrarily. There is a reason why 
they do it, Senator.
    Senator Paul. Well, no. The thing is it is arbitrary unless 
there are rules as to how you do it. What are the rules? In our 
country, if you want to look at my phone----
    Secretary Kelly. There are rules----
    Senator Paul [continuing]. You call a judge in my country. 
So, this would not necessarily be American jurisprudence if you 
are just saying we might have some internal rules. Have you 
published what your rules are?
    Secretary Kelly. At the ports of entry, whether a citizen 
or non-citizen, the officers have procedures to follow, but 
certainly rights to check baggage and in this case look into 
electronics. There are procedures. Whether they are published 
or not, are specific enough to publish, I do not know, but I 
can certainly get back to you.
    Senator Paul. We would like to see that. We would also like 
to see the form that threatens them with detention and/or 
seizure if they do not comply.
    Secretary Kelly. Sure.
    Senator Paul. I can tell you I am not happy with the 
policy, and I wish it were different. And, we have actually 
introduced legislation to try to stop you from doing this and 
to make you go to a court the way we do in our country. 
Typically, we go to a court and you ask a judge, and you have 
to present evidence. You have to specify an individual, and you 
have to have a reason for doing it. Searching someone's phone, 
is not the same as searching someone's luggage.
    Secretary Kelly. Would that law also prohibit us from 
looking in bags and things like that?
    Senator Paul. No, and I think there is a difference. And, I 
think that that is the whole point here, is that looking in 
someone's luggage for an immediate threat to the country, to 
the people, to the plane, etc., I think we have decided that 
that is within the scope of your jurisdiction. But, looking at 
someone's phone is a much more personal and much more extensive 
look into their life, and we just do not think you should be--
it sort of horrifies us to think that you could not come back 
in your country, you know? People are now talking. There are 
people giving you advice to not take your phone abroad because 
when you come back home, your country will not let you come 
home unless you let them look at your entire life. That does 
not seem like a fair tradeoff to be able to travel or for 
safety. And, I think there is a point at which we give up so 
much of our liberty to travel that has it been worth it, 
really? I mean, we can live in a secure State if we clamp down 
and we have no freedom to travel, and we give up all of our 
privacy to travel. I just do not think that is necessary. And, 
I think there can also be two different standards, frankly. I 
think there can be one standard for somebody who is coming for 
the first time from Afghanistan who has one name and no 
background. I am with you. We need to do more scrutiny on 
people coming to our country. But, if an American citizen 
leaves and comes back, I think, for goodness' sakes, they ought 
to still be protected by the Bill of Rights when they come 
home.
    Chairman Johnson. Senator Hoeven.

              OPENING STATEMENT OF SENATOR HOEVEN

    Senator Hoeven. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here and for your good and very important 
work.
    Where are you in terms of this extreme vetting process as 
far as having the procedures in place that you want, and 
particularly as regards the six countries included in the 
President's EO?
    Secretary Kelly. I am sorry, sir. Where are we----
    Senator Hoeven. Where are you in the process of 
establishing your extreme vetting procedures the way you want 
to have them set up, and particularly as regards to the EO 
countries?
    Secretary Kelly. Because, again, of my not wanting to get 
crosswise with the courts in any law, we have been very 
reserved in that. I will tell you that there are two aspects of 
this. Some of it I control, some of it the State Department 
controls. The State 
Department has recently issued a number of additional questions 
as an example that their consular officers will ask those that 
want to visit the United States on visas. That is a little bit 
of an easier thing because typically those people are coming 
out of countries--well, they would present a passport as an 
example, and there has always been certain questions in place 
that they would ask. Now there will be some additional 
questions about where they have lived and, it could be access 
to their electronic devices. But, that is outside the country.
    In the case of refugees, I think the Senator knows that in 
many cases the refugees that we deal with have no paperwork 
that we can rely on. They have no passports. We have to take 
their word for it.
    The United Nations (U.N.), as hard as they try--and I think 
the last time I was here, or one of the recent hearings, I 
talked about my interaction with the U.N. They are in the same 
position we are. Although they are not in the position of 
allowing people to come to a given country, they themselves, as 
they do their initial refugee screening--they do not do 
screening. They do refugee registration: What is your name? 
Where are you from? All of that taken on faith, good faith.
    And then, it comes to us. In the past we have, I think, 
exercised entirely too much good faith, and I think the things 
we are looking at is, OK, if you do not have a passport, you 
have no proof of who you are, then we need to know some 
additional facts and figures about you. How did you support 
yourself in a given country? Do you have any way to prove that 
you work for a living so that we can kind of prove who you are? 
What village were you at? Can you give us points of contact in 
a given country that we can call? That kind of thing.
    But, in many cases, many of these refugees do not have any 
of that, so it would be very hard for me in good faith to then 
move them into the United States to establish, a home here.
    But, I believe what will give us an advantage is when we 
start to deal with them on their social media accounts, their 
telephone, registrations, that kind of thing.
    Senator Hoeven. What about the Visa Waiver countries? You 
mentioned earlier that as we inflict defeat on the Islamic 
State of Iraq and Syria (ISIS) in the Middle East, there are 
individuals who have been in the Middle East and returning to 
other Western European and other countries with which we have 
Visa Waiver in place. What procedures, extra procedures, 
precautions are you taking to protect them from coming to the 
United States?
    Secretary Kelly. Well, as I think the Senator knows, there 
are 38 Visa Waiver countries. As you might imagine--I know you 
realize this--they are countries that have more or less what we 
have. They have a working relationship with the United States, 
to say the least. They have a U.S. embassy locally to handle 
our affairs and look out for us. They have kind of an FBI and 
an Intelligence Community (IC) and all the rest with databases 
that allow us to tap into what they do. That is getting better, 
by the way, and I have commitments from many countries around 
the world because of the laptop ban that we implemented in 10 
airports about mid-March.
    But, the point is we are in very good shape in those 
countries. We have confidence in their systems and how they 
interact with our systems. Not every country, though, say in 
Europe is a Visa Waiver country because some of them have not 
got--even though they are, Western countries, First World, they 
do not have what we think they need. So, we set the bar very 
high, and they have in most countries--certainly 38 have met 
that bar.
    But, that said, again, the long pole in the tent is, as Jim 
Comey would say, the database is only good if you are on it. 
And, not to get into it--I do not want to be too open about 
this in an open hearing, but some of the more recent terrorists 
in England or U.K. may not have been on any of those lists, so 
that had they decided to come here--you are exactly right----
    Senator Hoeven. That is my question.
    Secretary Kelly [continuing]. Had they come to the United 
States, they would have certainly been able to buy a ticket and 
fly to the United States. Now, their baggage and everything 
would have been subject to the normal protocols, so my sense 
would be that, they would not be getting on the airplane with a 
bomb or something like that, if they got here, hopefully. And, 
if they got here and were trying to do something about that, 
you know that. But, if they got here, then it would possibly be 
problematic. But, the point is there is a certain point where I 
do not think we either have a Visa Waiver Program (VWP) or not. 
And, I can tell you, the 38 countries that are on it are 
committed to it. We are all committed to making it better. 
Right now I am comfortable with where we are on it.
    Senator Hoeven. But, clearly, we have to react to events 
and take extra precautions, right?
    Secretary Kelly. We do.
    Senator Hoeven. In regard to Senator Hassan's comments 
regarding the Northern border, one of the best tools you have--
and you and I have talked about this--both at Homeland 
Committee Appropriations as well as this Committee, is the 
unmanned aerial systems (UAS). Kevin McAleenan, your Acting CBP 
Director, who, by the way, is absolutely fantastic, was out in 
Grand Forks. We have 900 miles of border responsibility, all 
different kind of terrain, all the way from Lake Superior all 
the way throughout most of Montana. The UAS is a great tool. 
You are collocated in the Grand Forks Air Force Base. We are 
looking at new facilities. We are working with him. I would ask 
for your strong support for him in that effort.
    And, also, with the technology park we have there at the 
Grand Forks Air Force Base, it is really a unique opportunity 
to develop that UAS tool, which helps you on the Northern 
border and the Southern border.
    So, again, I want to commend him and commend him to you and 
ask for your support for his good efforts. That is a tool that 
can really address some of the concerns that she raised.
    Secretary Kelly. Senator, I agree with you. Thanks for the 
comments about Kevin. He is really a first-round draft choice.
    Senator Hoeven. He is an All-Star.
    Secretary Kelly. I cannot wait to get him confirmed, or 
hopefully the Senate will confirm him.
    Senator Hoeven. I agree. Thank you for all you are doing.
    Secretary Kelly. Sure.
    Chairman Johnson. Senator Harris.

              OPENING STATEMENT OF SENATOR HARRIS

    Senator Harris. Thank you.
    Secretary Kelly, as a follow-up to Senator Tester's 
questions, you mentioned that you have in your career had back-
channel conversations with foreign governments. Is that 
correct?
    Secretary Kelly. I had people I could rely on to pass 
information to foreign leaders.
    Senator Harris. And, was that in your current capacity as a 
member of the President's Cabinet?
    Secretary Kelly. That was in my capacity when I was in 
uniform. I would not hesitate to do it now.
    Senator Harris. And, did you initiate any of those 
conversations such that you initiated that they would take 
place inside the embassy of a foreign government?
    Secretary Kelly. I have gone to embassies both in my 
current assignment as well as in past assignments or met with 
members of the diplomatic corps from other countries, and----
    Senator Harris. Have you initiated back-channel 
conversations----
    Secretary Kelly. Can I finish what I was saying?
    Senator Harris [continuing]. To occur inside of those 
embassies as opposed to attending a cocktail party?
    Secretary Kelly. I have had conversations with members of 
foreign diplomats in various places and talked to them about my 
perception of what they could do better in response to things 
that the U.S. Government would like to see them do.
    Senator Harris. Thank you.
    Secretary Kelly, included in the President's budget is a 
provision that says, ``The Secretary of Homeland Security may 
condition a grant or cooperative agreement awarded by the 
Department of Homeland Security to a State or political 
subdivision of a State for a purpose related to immigration, 
national security, law enforcement, or preventing, preparing 
for, or protecting against, or responding to acts of terrorism. 
Specifically, the budget authorizes the Secretary to condition 
grants on compliance with any lawful request by DHS to detain 
an alien for a period not to exceed 48 hours.''
    Are you familiar with that?
    Secretary Kelly. I am fairly familiar with it, yes.
    Senator Harris. I am sorry?
    Secretary Kelly. Fairly familiar with it, yes.
    Senator Harris. Grants that are subject to new conditions 
would include the Urban Area Security Initiative, a DHS grant 
that provided California last year with $124 million to help 
urban areas prevent, mitigate, and respond to acts of 
terrorism. This grant supports more than 100 incorporated 
jurisdictions in 12 counties in the Bay Area of California 
alone. It supports them to buy equipment, enhance systems, and 
conduct trainings so that localities can prevent, mitigate, and 
respond to acts of terrorism. Are you aware of that?
    Secretary Kelly. That is a good thing.
    Senator Harris. Another DHS grant is the State Homeland 
Security Grant Program that provided California $60.2 million 
last year to support State, local, and tribal efforts to 
prevent terrorism and to prepare the Nation for threats and 
hazards that pose the greatest risk to security in the United 
States. Is that correct?
    Secretary Kelly. I wish I had the same document I could 
read from as you do.
    Senator Harris. Are you familiar with this grant program in 
your Department?
    Secretary Kelly. I am familiar with the grant program.
    Senator Harris. And, are you aware that there are a number 
of Federal courts that have imposed civil liability on local 
governments for complying with ICE detainer orders that were 
not supported by probable cause? Can you answer the question?
    Secretary Kelly. Am I aware of that?
    Senator Harris. Yes.
    Secretary Kelly. I am.
    Senator Harris. And, in order then to comply with the 48-
hour ICE detainer made with no probable cause, would that not 
force the jurisdiction to choose whether to comply with the 
Federal court ruling or forfeit vital public safety funds that 
are administered by your Department?
    Secretary Kelly. I am not a lawyer, but I think that 
Federal law is Federal law as State law is State law, and if we 
have a different view of the impact of some of the State 
rulings.
    Senator Harris. Well, imagine, sir, if you will, that you 
were a local law enforcement leader presented with a choice of 
either complying with Federal law that means that you may 
expose your department and your jurisdiction to civil liability 
or forfeiting DHS funds that are designed and intended to help 
you fight terrorism at a local level, would you not agree that 
puts those law enforcement leaders in--it is almost a Hobson's 
choice?
    Secretary Kelly. Well, Senator----
    Senator Harris. How are they supposed to choose?
    Secretary Kelly. Had you not cut me off, I would have said 
the same thing you just said, probably not as eloquently but I 
would have said the same thing you said. I appreciate the fix 
they are in. I appreciate that they get their legal advice from 
the State and locals. And, below the radar, we work with every 
police and sheriff department in this country to the degree 
that they can and are comfortable with.
    Senator Harris. Secretary Kelly, what do you mean, ``below 
the radar?'' They have two choices, and they are accountable--
--
    Secretary Kelly. Talk to them on the phone----
    Senator Harris. Excuse me, sir. They are accountable to 
their jurisdiction, to the bodies that may have appointed or 
elected them, and they have to make choices. What do you mean, 
``below the radar?''
    Secretary Kelly. We talk to them on the telephone, and----
    Senator Harris. And, what are you instructing them to do 
when presented with those two choices?
    Secretary Kelly. And, we tell them to--whatever they can do 
within the law, the interpretation, we are willing to work with 
them.
    Senator Harris. So, are you aware that there are local law 
enforcement----
    Secretary Kelly. Could you let me at least finish once 
before you interrupt me?
    Senator Harris. Sir, with all due respect----
    Secretary Kelly. With all due respect, Senator.
    Senator Harris. Are you instructing local law enforcement 
leaders that they can overlook a DHS detainer request so they 
are not exposed to criminal liability?
    Secretary Kelly. We talk to them about whatever they are 
comfortable with, whatever they think they can do within the 
interpretation of their local Attorneys General (AG), as an 
example, or local lawyers----
    Senator Harris. So, when they are----
    Secretary Kelly. Could you let me finish once?
    Senator Harris. Excuse me. I am asking the questions.
    Secretary Kelly. But, I am trying to answer the question.
    Senator Harris. When they tell you, as I know local police 
chiefs are being told, that it would expose their municipality 
to civil liability if they comply with the detainer request, 
are you telling them that you will not withhold the DHS Federal 
funding that they rely on?
    Secretary Kelly. OK. Before I start to answer, will you let 
me finish?
    Senator Harris. If it is responsive to the question, of 
course.
    Secretary Kelly. We talk to them on the phone and tell them 
whatever they are comfortable with, whatever they can do within 
the interpretation of their local lawyers or legal advisers, we 
will work with them.
    Senator Harris. So, are you willing to then not withhold 
Federal funding when police chiefs tell you that they cannot 
comply with the detainer request because they have been told by 
their lawyer that they will expose their jurisdiction or their 
department to civil liability?
    Secretary Kelly. I am willing to work with them in any way 
I can within the law, Federal and local law, whatever they are 
comfortable with. I do not make threats to people, Senator.
    Senator Harris. Thank you. My time is up.
    Chairman Johnson. Thank you, Senator Harris.
    By the way, there is actually a very simple fix for this 
predicament, and it is a huge predicament. Let us pass a law to 
give those local law enforcement officials liability protection 
against those civil suits, because part of Pat Toomey's 
sanctuary city law, that could clear up this whole difference. 
So, there is actually a pretty simple fix here which I would 
certainly support.
    Senator Harris. And, I would support any fix that would not 
withhold funding for local law enforcement to meet the demands 
that they face around combating terrorism in their local 
jurisdiction.
    Chairman Johnson. Great. So, this could be a bipartisan 
solution here.
    Senator Harris. Potentially.
    Chairman Johnson. Let us provide that civil liability 
protection against those civil suits so local law enforcement 
are not caught between a rock and a hard place in a very 
difficult situation. So, let us work on that together. I would 
appreciate that. I am sure Secretary Kelly would enjoy working 
with us on that as well. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Thanks. Mr. Secretary, thank you for 
joining us today. It is good to see you.
    When I first heard the words ``St. Elizabeths,'' I thought, 
Why would we spend that much money on creating a campus, if you 
will, a home, a consolidated home for the Department of 
Homeland Security? And, over time I became convinced that one 
of the ways to actually enable the leadership of this 
Department to manage their Department and to improve their 
performance and, frankly, improve the morale of the employees 
is to actually pursue and implement the plan to create this 
campus. When Jeh Johnson became the Secretary, he had the same 
kind of misgivings that I originally had about the proposal.
    Would you just take a moment and tell us whether you have 
had a chance to get a feel for this and how your Department is 
so far-flung----
    And, what do you think we ought to do? And, how does the 
Administration's budget actually take us in that direction or 
not?
    Secretary Kelly. Well, Senator, we are in--I cannot count 
the number of locations around the city. Various parts, every 
part of Homeland Security is just spread out over all of Hell's 
Half Acre here. To bring all or most of it or some of it 
together over at St. Elizabeths makes a lot of sense just from 
the point of view of time management. I mean, first--and money. 
We spend a huge amount of money renting, choice downtown real 
estate here in the city. We could avoid much of that. I think 
we would realize, if and when St. Elizabeths opened, billions 
of dollars in savings over 5 and 10 years.
    But, the other issue is time management. I mean, it takes 
me half an hour to get from where I sit most of the time to 
meet with CBP or ICE or whatever, and then, obviously, half an 
hour to get back. Sometimes I do that two, three times a day. 
It kills either my time management or their time management. I 
do the best I cannot to inconvenience the people that work for 
me. But, it would be an advantage to be more or less in one 
place. St. Elizabeths seems to be the locale. But, frankly, as 
I have gotten smart on that particular location, there are some 
worker issues that we need to sort out, and we can do that in 
terms of transportation, access to Metro, that kind of thing.
    But, overall, it would be a cost savings as well as a time 
savings if we were to consolidate much of the headquarters 
effort in one location--St. Elizabeths.
    Senator Carper. There are two pieces of funding. One is for 
GSA, and the other is for the Department of Homeland Security. 
I think one is for infrastructure and one is for if you go for 
a fit-out. And, one of them is--I think the GSA piece is funded 
in the 2018 budget. The DHS funding is not there, so I would 
like to follow up with you on that and certainly talk with our 
appropriators, some of whom are on this Committee, I believe.
    Secretary Kelly. Yes, sir.
    Senator Carper. I want to go back down to the Southern 
border. We see some substantial increases in funding for CBP, 
for ICE, money for detention centers, money for a wall. There 
is also money for what I call force multipliers. I am a big 
believer in force multipliers. I am not a big believer that we 
need a 2,000-mile wall. There are some places where a wall 
makes sense, but the idea of investing these force multipliers 
that have been demonstrated to be effective is good.
    You and I have talked often about root causes, and the root 
causes of why the people continue to come from Honduras, 
Guatemala, and El Salvador has a lot to do with our insatiable 
demand for drugs. Drugs are trafficked through those countries. 
They come to us. We send them money and guns. And, we set up 
something called the Alliance for Prosperity a couple of years 
ago. Actually, those three countries set it up, and we came in, 
and as you know well--you were there at the creation--to try to 
emulate what has been accomplished in Colombia.
    Do you have a sense for how things are going in those three 
countries with respect to the goals that they set themselves on 
the Alliance for Prosperity?
    Secretary Kelly. A great question and really a great story. 
Not perfect, but a great story. Based on the confidence that 
Congress and the previous Administration put into the three 
Northern Tier countries in helping them out, recognizing that, 
first of all, they have a problem; much of it is generated by 
our insatiable appetite for drugs, that those countries are 
nearly failed States, much as Colombia was 20 years ago and is 
not today. So, the miracle can happen. I mean, Colombia did it. 
And, frankly, at the time, Plan Colombia was put together by 
the U.S. Congress with a lot of resistance in other places and, 
as you know, I think, Senator, put some American money--I think 
4 cents on the dollar, but ultimately it is a miracle that has 
happened in Colombia. So, when people tell me it cannot happen 
in Central America, I tell them to look at Colombia.
    So, that said, the Alliance for Prosperity, the three 
countries putting their own money into it, then through 
Congress, the Obama Administration, Vice President Biden was a 
huge help in this, as you know, get some additional U.S. 
funding put against it, controlled in the right way.
    So, what has happened in Central America since we worked on 
the Alliance for Prosperity? Violence is down. Honduras, El 
Salvador, and Guatemala used to be the three most dangerous 
countries on the planet--more dangerous, frankly, than 
Afghanistan and Iraq was at the time. They have cut their 
murder rates by either a third or more. Still horrific, but cut 
it a third or more, all with human rights in mind, all with the 
rule of law in mind.
    They have a long way to go, but their economies are 
starting to grow. They have gotten their arms around the 
corruption. Four or 5 years ago, when I took SOUTHCOM, 
everything was going in the wrong direction on Colombia--or in 
Central America. I just read a report this morning where they 
have either stabilized, not getting worse, or getting better. 
That is huge.
    I think you know, in addition to my outreach, back-channel 
communications in some respects, to the leadership down there, 
through religious organizations and non-governmental 
organizations (NGO's) so that I do not make it official but 
they know where I am and where I am going on these issues, we 
have also asked them to ask their citizens to not waste the 
money and head north, to not get on that terribly dangerous 
network that I described before, stay where they are, because 
if they come here, this is no longer an illegal alien-friendly 
environment. It is a very legal alien--and as the Senator 
knows, 1.1 million people a year. But, it is no longer a 
friendly environment for illegal aliens. Do not waste your 
money. Do not go on the dangerous network.
    What we are doing, we have put together--frankly, the DHS 
has been the energy behind it, although it is not my job. We 
have passed it off to the State Department. So, next week, in 
Miami, we are bringing together as cosponsors of a conference 
on the Northern Tier countries; Mexico, great country, great 
partner, and the United States cosponsoring. We have observers 
coming in: Canada, I think Spain, certainly Costa Rica, Panama, 
Colombia, maybe Peru, for a 2-day conference. That conference 
will be led by the Vice President. I will be there; Secretary 
Tillerson, as well as Secretaries of Commerce and Treasury will 
be there.
    The point is the first day we will bring together investors 
to do the best we can to stimulate what is going on in those 
three countries economically, and then the next day will be 
security issues, trying to get at the human trafficking and the 
drug trafficking. And, just last week, I was down in Haiti 
meeting with the new leadership there on another issue. I 
suggested that maybe the Haitian President come on board for 
one of those days or at least do a cameo-type appearance.
    So, what we are trying to do is help them solve their 
problems at home economically. We have already helped them 
solve the security--not solved, helped them go in the right 
direction on security, and with a little luck, we might 
actually be able to help them. But, if we do not reduce the 
drug demand in the United States for heroin, cocaine, and 
methamphetamine, this is all a complete waste of time.
    Senator Carper. Yes. Well, I would just say to my 
colleagues, the Secretary said I asked a great question. I 
thought he gave a great answer. And, I think you have made the 
case for continued support for the Alliance for Prosperity. 
Just like in Colombia, the lion's share of the responsibility 
rests on these three countries. We did not just say to 
Colombia, ``We are going to come in and solve your problems.'' 
We said, ``You solve them. You can do it, and we can help.'' 
And, we said the same thing with these three countries, and you 
made the case for it.
    I am delighted to hear about the summit. I do not believe 
our schedules allow us to go and participate, unfortunately, 
but my thoughts and prayers will be with you on your efforts in 
this regard. Thanks so much.
    Chairman Johnson. Thank you, Senator Carper.
    Just a moment of clarification. You mentioned 2,000 miles. 
So, there is no confusion, this budget is literally requesting 
74 miles of fencing--60 new miles of fencing, 14 replacement in 
the San Diego Sector. I was just down there. It is amazing how 
many holes have been cut into that San Diego wall and have been 
repaired. And, the 60 new miles, 32 miles of that is in the Rio 
Grande Sector, new fence, new wall, and 28 is part of a levee 
system. So, again, we are talking about 74 miles over, 1,700 to 
2,000 miles. I think that is a pretty reasonable request. 
Senator Heitkamp.

             OPENING STATEMENT OF SENATOR HEITKAMP

    Senator Heitkamp. Thank you, Mr. Chairman.
    And, again, welcome, Mr. Secretary. Of course, you know 
what my question is going to be. How soon are we going to see 
the Northern border report as mandated by Federal law?
    Secretary Kelly. I will get back to you today. I do not 
know, but in all seriousness, let me take it for the record. I 
am sorry.
    Senator Heitkamp. OK.
    Obviously, we had hoped we would see it in June. I think we 
have some reason to believe it is going to be delayed. But, it 
makes my broader point, which is, we need a strategic plan in 
terms of border security, and one thing that we hear about is 
fencing, and I have spent a lot of time on the Southern border. 
I believe that barriers can be enormously effective as they 
have been in the San Diego area. But, again, we know that most 
drugs--at least the previous Administration would tell us that 
most of the drugs that we are talking about are coming through 
the points of entry and not walking across the border in remote 
locations.
    What additional strategies do you have to do additional 
screenings? Where is the investment in more personnel, more 
screenings, more technology at the points of entry?
    Secretary Kelly. In a sense, that is part of the border 
strategy. There is no doubt--and I know a lot about this from 
my last job in particular, but there is no doubt that heroin, 
methamphetamine, and cocaine primarily come through the border 
in vehicles, primarily. Marijuana is in some cases humped 
around, through the desert. But, for the most part, the three 
big killers in the United States come in, and if Kevin 
McAleenan--and just a tremendous professional, and dedicated, 
my hope is that the Senate confirms him. But, he is already in 
a role that makes him very valuable. I have asked him to look 
at the technology after next in terms of looking into vehicles, 
tractor-trailers, things like that, to look at the voids, as 
they are called, so we can decide which vehicles get searched, 
broken down, and to increase the number of vehicles.
    The other way to do that--we already do it in Canada. We 
are doing it in Mexico, and that is to work across the border 
with the Mexicans or the Canadians in terms of facilitating 
movement of transportation, looking at vehicles before they are 
locked and sealed on the way north.
    So, it is a multifaceted approach, but if I could--and I 
will just end with--but if we are trying to do this on our 
border, we have kind of already lost. The place to take the 
tonnages out, working with the Mexicans, which we are, to help 
them locate the heroin, the poppy fields which they can 
destroy, working with the Mexicans to identify, and we are, and 
they are, destroying the methamphetamine labs----
    Senator Heitkamp. And, just to raise a concern there, we 
obviously have in the past had pretty good relationships with 
the country of Mexico. We saw in a regional election the ruling 
party coming very close--in fact, not getting a majority. The 
last thing we need is to not have strong and great relations 
with the country of Mexico. So, I would just ask you and urge 
you, given your experience in the region, to encourage this 
Administration to look at the entire relationship, whether it 
is a trade relationship, whether it is a border security 
relationship, or whether it is just respectful talk, that that 
does us no good. I want to just cover a couple----
    Secretary Kelly. I work at it every day.
    Senator Heitkamp. I want to cover a couple of quick points.
    I have beekeepers who cannot get seasonal workers in, and 
it just seems like the delays are getting longer and longer for 
the 
H-2B visas and the H-2A visas, and seasonal workers cannot 
wait. How long do you think is a proper timeframe to get an 
answer on whether we can get workers in the country? And, what 
are you doing to meet the requirements of the law but to 
expedite especially for seasonal agricultural workers?
    Secretary Kelly. The A workers, I know we already have 
large numbers that come in and have been coming in over the 
years. But, looking on the B side, H-2B, working with labor, 
this is all about--in the current Administration, this is all 
about American jobs versus people that come in and do the work.
    Senator Heitkamp. Except I have doctors who cannot get in. 
If the Administration wants to send me beekeepers and doctors 
and a whole list of Americans who want those jobs, we will be 
glad to do that in my State. But, we have to recognize that in 
the meantime, especially as it relates to physicians, it is 
extraordinarily difficult to recruit physicians to my State. 
And, we have seasonal workers who we cannot--I mean, obviously, 
we would love to hire locally, but that is becoming 
increasingly impossible. And so, I will probably submit a 
question for the record.
    Finally, because I am running out of time and I want to get 
enough of this in, if you look at local border enforcement, the 
critical component in States like ours is not just technology, 
as Senator Hoeven talked about, but it is having a strategy and 
a plan. And, that strategy and plan has to involve local law 
enforcement. You have Border Patrol in North Dakota that, when 
they are patrolling the border, they are in radio contact with 
your people back in your points of entry, back where Border 
Patrol would muster and deploy. So, we know that we have to 
have that backup.
    One thing that concerns me, and it goes to the FEMA grants, 
it goes to this idea that we can cut grant programs and still 
provide those services. Stonegarden has been an enormously 
successful program. Really concerned about reductions in the 
commitments to local law enforcement, not just for border 
security but for safety of the personnel who are on the border. 
So, I would ask you to please pay close attention to this 
budget as it relates to working with local law enforcement, 
local first responders. They are force multipliers, and without 
those resources, they are going to have to cut back on 
resources, and that reduces our readiness. I do not think there 
is any doubt about it.
    Secretary Kelly. OK. I will.
    Senator Heitkamp. Thank you, Mr. Secretary.
    Chairman Johnson. Senator Heitkamp, I would ask you to take 
a look at my State-based temporary visa program. I think it 
would solve an awful lot of that problem right there.
    Then just kind of a comment to majority staff, minority 
staff, as well as the Secretary. We should really have an alert 
for witnesses to be prepared to answer questions on the 
Northern border.
    Senator McCaskill. We have way too much Northern border---- 
[Laughter.]
    Chairman Johnson. There is not much of the Northern border 
that is not represented on this Committee, so that is always an 
issue.
    Secretary Kelly. That is why I love appearing before this 
Committee. [Laughter.]
    Chairman Johnson. Senator Lankford.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. So, my Northern border is Kansas, and we 
have had our moments, but we are getting along just fine.
    Let me talk about a couple of other things as well. One is 
you and I have spoken even in the past 2 weeks about REAL ID 
and some of the extensions and the process and the 
decisionmaking on that. At the time we talked before, I said, 
hey, the deadline is coming up June 6th for that. We were going 
to try to get back to it quickly. There has been a delay on 
this. So, there are several issues that are pending out there 
for States like mine and others that are working through the 
REAL ID process. For those our legislatures passed issues with 
REAL ID, working through implementation and such, that has been 
fairly automatic that if you are making progress and you are 
working through implementation, then those extensions are 
coming. It seems to have delayed this time until literally the 
very last second, and then we are still waiting to be able to 
determine what is the decisionmaking factor on that. So, help 
me understand a little bit better so we can take that back.
    Secretary Kelly. So, the first thing I would say, I had a 
lengthy meeting earlier this week--yesterday--on this because 
actually today was the day that normally I would have made the 
decision to extend or not. Now, I think the Senator knows, I 
think it is July 22nd before anything would stop.
    Senator Lankford. Right.
    Secretary Kelly. So, I have a little bit of time, and I 
have sent my staff back to kind of take a harder look at 
where--as you know, most States are either compliant or getting 
toward compliant. In fact, there is really only one State that 
is kind of not going to, I believe, if all the promises are 
met, will not make it. But, I have asked my folks to go back 
and start looking at some of the States that have not been as 
active as they maybe should have been over the last 12 years to 
implement.
    They have been in contact with these States, the Governors, 
the Attorneys General, whoever is in charge of this kind of 
thing. We have for the most part commitments from the States to 
really get at this issue. But, I have asked them to just go 
back one more time, if need be, talk to the States about the 
extension and what it means.
    Bottom line--and in that meeting they told me, ``Secretary, 
3 months ago we had States that were not even paying attention 
to this, that were getting dangerously close to not being able 
to implement before the deadline. They have all got the 
message,'' they said, ``Mr. Secretary, and with the exception 
of one State, they are all in there doing the right thing, 
getting close to it.''
    So, I know I will make a decision next week, likely will 
extend for 6 months until October, and then we will take a hard 
look then. But, the good news is, with a lot of pushing and 
shoving and gnashing of teeth over the last 10 years or so, 
most States are on board, and I believe all but one will be 
compliant.
    Senator Lankford. So, let me just give you a couple of 
inside pieces on this. When you talk about we have a little bit 
of time until basically late July, let us say that at some 
point DHS comes out and says, no, that driver's license is not 
going to be extended. Then that means everyone has to get a 
passport, which in the summertime takes 6 weeks minimum to be 
able to do.
    Secretary Kelly. Right.
    Senator Lankford. Plus you have to contact people and let 
us just start with the military base or a Federal courthouse 
and to be able to tell everyone coming to a Federal courthouse 
you are going to have to have something different. You are 
going to have to get a passport.
    Well, first, you have to identify who is coming to the 
Federal courthouse and be able to contact those folks and give 
them 6 weeks of lead time to get their paperwork together to be 
able to do it. We are out of time. Once you get to the June 6 
time period to know that deadline is really coming up, if 
drivers that are doing deliveries, the people that are 
refreshing the convenience store in a Federal building, the 
people that are bringing groceries into the facility onto a 
military base, if they have to all have some sort of other 
passport or something, that is going to take a long time to be 
able to get geared up. So, the earlier those waivers can be 
released, the less anxiety it is in all of those locations, 
because all of them are currently spinning up in each of those 
States to try to figure out how we are going to accommodate 
around this just to be able to get supplies and equipment 
brought in, or people coming in to apply for a job onto a 
military base as a civilian cannot even come and do that 
without an escort to be able to do it. So, that will be a big 
issue.
    The hiring process we have talked about before for CBP. Any 
progress on that of late? Because we are still talking 460 days 
for hiring. And then, the polygraph issues, have there been any 
changes since you and I have spoken last?
    Secretary Kelly. Yes, Senator. A couple of things. One, on 
the polygraph issue we will continue to polygraph, but there 
are other ways to polygraph. I did not realize this, but Kevin 
McAleenan, who is the designate and hopefully will 1 day be 
confirmed for the directorship of CBP, has told me that there 
are other techniques, other questions, things like that, that 
still maintain the vetting process but are faster. There are 
other parts of the Federal Government, not to mention the State 
and local, that have polygraphs that are a lot less----
    Senator Lankford. Right, so they have a fail rate in the 
30s, and CBP has it in the high 60s.
    Secretary Kelly. My daughter works for the FBI. She said 
her polygraph was a fairly pleasant experience. It took an hour 
and 10 minutes. They asked all the right questions, and she was 
out of there. By contrast, 6 or 7 hours. So I just, when I came 
in, said let us take a look at it.
    Senator Lankford. That could be the first time I have ever 
heard anyone say that polygraph was a fairly pleasant 
experience.
    Secretary Kelly. I love it. [Laughter.]
    Senator Lankford. So, let me ask about the entry-exit 
program. Is everything still on schedule for that? We have 
spoken about that before.
    Secretary Kelly. Well, it is like anything. The entry at 
the airports, we do it well.
    Senator Lankford. Right. It is the exit.
    Secretary Kelly. Working hard--and entry at the ports of 
entry. But, the exit is--it is not a bridge too far, but it 
will take some time, effort, but we are working toward----
    Senator Lankford. So, the pilot is on track? I guess what I 
am trying to figure out is by the end of next year, we are 
trying to implement that nationwide. Are we on track at this 
point to be able to implement that at airports nationwide? We 
still have a long way to go on vehicles and other entry-exit 
points.
    Secretary Kelly. Airports, I think I am comfortable with 
saying yes.
    Senator Lankford. OK. So, there was an announcement made by 
DHS on temporary protected status (TPS) for Haitians to extend 
it for 6 months, but it basically raised a red flag for them 
and said, ``Hey, this is it.'' The situation has changed in 
Haiti that demanded the temporary protected status years ago. 
It may or may not be there. What I want to ask is: Is this an 
alert for Hondurans, for Salvadorans, for everybody on 
temporary protected status, that DHS is going to look at the 
situation that started temporary protected status and ask if 
that situation has changed?
    Secretary Kelly. Senator, it is an alert, but that said, 
for whatever reason, once someone goes on this status, 
traditionally or historically they just automatically renew it.
    Senator Lankford. Right.
    Secretary Kelly. Some of the Central Americans have been on 
status over 20 years, and they were put on status because of a 
hurricane that happened over 20 years ago. I can tell you that 
things are going better in Central America, much better over 
the last 20 years, in many ways better. But, no one has ever 
looked at it, and I think that we have to do that. There is a 
law. In Honduras--not Honduras, Haiti 7 years ago, and the 
program was for a specific event. In Haiti it was the 
earthquake. Yes, Haiti had horrible conditions before the 
earthquake, and those conditions are not much better after the 
earthquake. But, the earthquake was why TPS was granted, and 
that is how I have to look at it.
    Now, that said--and I do not want to get too far out front 
here, and I certainly would not suggest anything hard to 
Congress, but there are about, we do not know, 200,000 to 
400,000 people in the United States on TPS, the vast majority 
of them behaving themselves, the vast majority of them have 
clearly got jobs and all the rest of it. They are here more or 
less legally. A lot of them were not, but they were given TPS, 
so I would make the assumption they are here legally. That may 
be--we may think, you may think that a solution to this would 
be to look at them and say, OK, how many of them do we know are 
here and use that against the 1.1 million legal migrants with a 
way toward citizenship. That may be a way to solve it.
    I can look at the Haitian situation and say 7 years, it is 
a long time, but it is not so long that some of them--all of 
them might be able to go back. Twenty years, it is kind of 
hard. But, I would like to see this solved in another way, but 
according to the law, I do not have the ability to solve it. 
But, the word is ``temporary,'' and I think those that have 
been in my position over the years have simply automatically 
extended it. So, the 6 months--and I was down in Haiti last 
week, spoke with the leadership. I said during the 6 months, 
you, Haiti, need to start thinking about travel documents and 
how you are going to bring these people, who, by the way, are 
generally better educated, entrepreneurial, would be, I think, 
a boost to the Haitian economy and social function, and by the 
same token those that have been allowed to the United States, 
to remain in the United States under TPS should start thinking 
about going back to their homeland, unless they--and if they 
feel as though--and I said this in Miami right after the 
Haitian trip, many of them at this point probably have 
different immigration status anyways in the sense that they 
have married local men and women or whatever. So, they need to 
get on and consult with an immigration expert to find out if 
they have status.
    But, at the end of it, the word is ``temporary'' unless we 
change that, unless you change that to permanent somehow.
    Senator Lankford. Got it. Thank you.
    Thank you, Mr. Chairman.
    Chairman Johnson. Senator Daines.

              OPENING STATEMENT OF SENATOR DAINES

    Senator Daines. Thank you, Mr. Chairman.
    Secretary Kelly, it is good to see you again. Montana 
recently passed a law--and it has been signed by our Governor--
for REAL ID that I think is going to bring us a solution to the 
dilemma we faced. We still need an extension to get it put in 
place, but we will offer Montanans two IDs. You can get a REAL 
ID-compliant driver's license or one that is not and pay a 
premium for the REAL ID-compliant, but I think we have a path 
going forward. We will need an extension just as we get this 
system implemented, but the Governor has signed the bill. I 
think we finally have a path forward with the impasse that we 
have had here for certainly quite some time.
    I have to say something here, Secretary Kelly. This 
chart\1\ you shared showing the reduction in apprehensions 
across the Southwest border I think is one of the most under-
told stories in the country at the moment, to think that we 
have seen a nearly 70-percent drop in illegal Southern border 
crossings under your first few months of leadership, and it was 
accomplished by sending a message to the world, and 
particularly down south, that the United States would enforce 
its laws. Thank you, as we are nation of law and not a nation 
of men that you have led with President Trump, and I think we 
need to get this message out more. I have spoken to a lot of my 
friends and constituents back in Montana, and that message 
needs to get out. So congratulations.
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Daines appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    And, as we have seen the horrific attacks in London--there 
is breaking news now of a crazed man in Notre Dame cathedral 
here in the last few hours. Who knows if it is a terrorist 
attack or not? But, the point is it seems like we are 24 by 7 
breaking news with these horrific attacks around the world and 
that we have seen in London. Homeland security will remain our 
top priority and challenge, and I look forward to continuing to 
work with you to ensure you have the resources to keep our 
Nation safe.
    Secretary Kelly, we have discussed the impact of 
methamphetamines coming from south of the border on Montana's 
families. In fact, about one-third of the children in the 
Montana foster care system are there because of parental meth 
use, and most of that meth we believe is coming from Mexico.
    Recently, Senator Peters joined me in introducing the Child 
Protection and Family Support Act. It is going to help these 
children. But, we also need to continue to fight against the 
flow of drugs. I know CBP is requesting an additional $2.9 
billion. What will this mean for the interdiction of meth at 
the border?
    Secretary Kelly. I hate to say this. Probably a drop in the 
bucket. Necessary. And, you and I have talked about this, 
Senator, and made a few comments since this hearing. Really, we 
have to 
take a much more holistic approach to this: demand reduction, 
rehabilitation. Certainly law enforcement plays a role in the 
homeland. The Southwest border plays a role. Our partnership 
with Mexico--and here I think it gets more and more important. 
Our partnership with Mexico, to use the example of heroin and 
meth, as you say, they are cooperative with us. Just recently, 
within the last 60 days, they destroyed two massive 
methamphetamine labs. And, by the way, the reason the 
production of meth has migrated so heavily toward Mexico--and 
this is the balloon effect we talk about. When we do something 
that is effective, the cartels figure out a way to get around 
it. And, it is a cat-and-mouse game that never ends. Right now 
it is the Southern border, as I mentioned earlier. Tomorrow it 
could be the Southern border or containers, depending how 
effective we are.
    So, the U.S. Congress passed legislation 10 years ago, 
something like that, and restricted the precursor chemicals, 
the availability of the precursor chemicals to make meth. Up 
until that point, meth was made in a million little places in 
the United States, in tiny little laboratories. And, I use the 
term loosely there.
    Two things: The Congress reduced the availability of the 
precursors, and the cartels, as they have become more and more 
successful and sophisticated, said, ``OK, well, if they were 
responding to a market'': ``If the United States wants to try 
to kill themselves on methamphetamine, heck, we can do it for 
them.'' And so, that is why it has migrated. Again, 
Congressional action in terms of restricting the precursors and 
then simply the cartels taking it up and marketing it.
    So, that is primarily, in my view, the solution to the 
problem: working with Mexico, yes; the Southwest border, for 
sure; and increasing the amount of take we take there, yes. 
Internal U.S. law enforcement. But, Senator, it really is all 
about demand reduction. We will always have addicts. Studies 
tell you that, any population always included certain people 
predisposed to being addicted to something. But, an awful lot 
of these people--my personal experience as a kid, an awful lot 
of people start doing drugs because it is cool, there is no 
argument against it, and suddenly they are hooked on something, 
fill in the blanks, and they cannot get away from it.
    We have solved--not solved. I have appeared in this hearing 
a year ago April and talked about this issue of how we have 
managed to convince people over the years: seat belts, smoking, 
a lot of different things. You never get to zero, but we could 
do a lot better. I think the President has DHS, State, the 
Department of Health and Human Services (HHS) in the lead, 
ONDCP. So, if we could get a comprehensive drug demand strategy 
put together that just is not law enforcement, it is Hollywood, 
it is professional sports, college sports, the President of the 
United States, the Senate, everyone out there, the influencers, 
we can solve this problem or reduce this problem significantly.
    But, back to your original question, we need the money, but 
it is a holistic thing, and it is not just a CBP guy on the 
border.
    Senator Daines. Senator Portman and I and a couple of 
others were over in Beijing just a couple of months ago working 
on getting U.S. beef into China. It was one of our missions. We 
were talking to North Korea as well. But, Senator Portman 
brought up the issue with the Chinese Government to stop the 
flow of fentanyl and carfentanil, which you can buy on the Dark 
Web. Oftentimes it comes out of China. So, this holistic 
approach is certainly the right approach, and I will continue 
to work with you on that.
    I want to shift gears for a time and talk cyber. As the 
budget request reflects, cyber is a national priority. The 
requested increase for the National Protection and Programs 
Directorate (NPPD) would help meet the current cyber threats, 
but we need to also stay ahead of these emerging threats that 
we see everywhere.
    Back in February, in fact, I introduced a bill, the Support 
for Rapid Innovation Act, which provided the Science and 
Technology (S&T) Directorate direction and authority to 
leverage limited resources with the private sector and academia 
to research and develop the next generation of cyber protection 
capabilities.
    Despite the proposed cuts, Secretary Kelly, how will the 
S&T continue to support cyber research and development (R&D) in 
fiscal year 2018?
    Secretary Kelly. Sir, first of all, I would like to just 
say a couple of words about the effort right now. On the 
morning that the malware was unleashed on Europe--and I went to 
the White House Situation Room, and as we watched that worm its 
way around the world, infecting hundreds of thousands of 
systems. We had FBI, DHS, and, well, everybody. When it first 
started, ``we,'' DHS, had made notification to those private 
and public entities that we deal with constantly and said 
something is up, put the word out, put the alert out. Other 
parts, including DHS, started to do the forensics on the thing. 
What is it? What is it doing? What is it made up of? Where did 
it come from? And, I am very proud to say that everyone in the 
room was constantly deferring to what is next. What do we do 
next? This includes NSA with DHS. Not that DHS professionals 
did it all, but we were the central focus of it.
    And, I am very proud to say that through the efforts of my 
predecessors and the U.S. Congress and others, that malware 
came to the United States but was contained to a handful of 
systems and contained within those systems. It is as if it 
never came across the ocean, so to speak, and we helped nations 
overseas contain it.
    That said, we need to get better because the threat is 
changing, morphing, and this Administration, to pat it on the 
back, and certainly my Department of Homeland Security are 
focused on increasing the protections better than they are now, 
particularly as we interact--and we do heavily interact--with 
private entities, Microsoft, people like that. It is one team, 
one fight, and can only get better.
    Senator Daines. Thank you, Secretary Kelly. And, I just 
want to thank you again for, when the President asked you to 
serve in this capacity, that you said yes. I am just grateful 
for your leadership and the early results you are already 
seeing because of your leadership. Thank you.
    Secretary Kelly. Thank you, sir.
    Chairman Johnson. Thank you, Senator Daines.
    I have just a couple of closing questions, Secretary Kelly. 
First of all, I am concerned about funding for the Coast Guard. 
When I was going through this, I asked staff, how much--I was 
hoping the Department of Defense made up a fair amount of 
funding, too, but they really contribute only about half a 
billion dollars per year. So, you take a look, since 2009 the 
funding for the Coast--or the budget was about $9.6 billion, 
then it was about $10.6 billion, a 10-percent increase. But, 
with the kind of threats we are facing, can you give me any 
kind of comfort that that is adequate?
    Secretary Kelly. I cannot. I think the Coast Guard, first 
of all, is just an amazing organization. It really came into my 
view when I was in Southern Command. I had seen them sprinkled 
around the world in the Persian Gulf, places like that, but it 
really came into my view in Southern Command about how good 
they are. Obviously, they are one of the five military 
services, small, and in my opinion, in exactly the right place, 
DHS. But, the myriad of missions that they execute and the 
authorities they have just make them value-added to say the 
least. But, it is not big enough.
    The biggest problem with the Coast Guard, I think if the 
Commandant was sitting right here, he would pat me on the back 
to say we need to recapitalize. They have some brand-new 
cutters coming on, national security cutters, valuable, 
essential. But, so much of the Coast Guard is so old that it 
just limps along. And, I think we have a plan--I would love to 
add to that plan, but I think we have a plan--and all of this 
is not to mention we have to get involved in the Arctic more 
than we are. We have a couple of broken down old icebreakers. 
We are looking to buy six--three heavy, three medium--to work 
up there in the northern reaches. We have to be up there, not 
to contest anyone's claims, but to simply work up there, 
particularly as importantly work in terms of the environmental 
protection of that precious international asset. But, it is not 
big enough, but it is doing yeoman's work----
    Chairman Johnson. Let us work together with Senator Boozman 
and his Subcommittee. Let us see what we can do on that, 
because I share your concern.
    I was just in Bratislava, and your predecessor, Secretary 
Chertoff, was there. He gave a speech, and he talked about the 
impact that the Visa Waiver Program had when they were able to 
expand it to some of these nations. I am highly concerned. I am 
also Chairman of the European Subcommittee on Foreign 
Relations, and I am concerned about the destabilizing nature of 
Russia, their pervasive disinformation propaganda campaign, and 
if we ignore central and southeastern Europe, there is a real 
concern that those nations do not join the West.
    And, Secretary Chertoff made a very powerful comment about 
how that Visa Waiver Program was sort of the stamp that really 
did solidify the fact that these nations that were granted the 
Visa Waiver were going to remain in the West and stay Western-
facing.
    I personally think the Visa Waiver Program enhanced our 
security. There are risks associated with it, but there are 
safeguards put in place to qualify. It just seems like such a 
political heavy lift right now. Secretary Chertoff certainly 
offered every ounce of help he could have.
    Can you just kind of comment on your viewpoint of the Visa 
Waiver Program and expansion? Because, let us face it, every 
one of those nations wants it.
    Secretary Kelly. Yes, sir, Senator. I would like to expand 
it to everybody. We have set the bar very high, and countries 
that meet that standard, welcome aboard. And, I share your 
concern with the Eastern European countries.
    This is kind of a sidebar comment. When I was working in 
Mons, Belgium, years ago as a colonel, after the Wall fell, the 
enthusiasm of all of those countries--they were falling all 
over themselves. How do we get into the North Atlantic Treaty 
Organization (NATO)? How do we become observers? That has been 
cooled a little bit for whatever reason. Well, you and I both 
know the reason.
    So, I think anything we can do to expand it. The good news 
is there are a lot of countries out there that are trying to 
get up to our level of security and satisfy us, and there are 
some countries that are close, some countries that are not so 
close.
    Chairman Johnson. We should kind of review some of those 
metrics. Are they realistic? Can we look at those and still 
maintain the kind of security we are looking for? So, I would 
like to work with you on that. That is kind of a long-term 
project.
    Just finally, because I think some people may view this 
with skepticism, but I was just assuming, truthfully, that even 
with this injunction in place, the Department would be able to 
move forward with the vetting process and really reviewing 
that. And, you said that, no, that injunction really has 
inhibited your efforts. I think the Ranking Member may want to 
jump into this, but can you explain in greater detail how that 
injunction is hampering your efforts at moving forward in terms 
of how do we properly vet refugees and other people coming in 
from those countries?
    Secretary Kelly. Yes, sir, we are just being as 
conservative as we can be so they do not--and, frankly, with 
due respect to Congress, I get an awful lot of phone calls and 
an awful lot of ugly phone calls about how I am not following 
some law. I learned very early on if there is a perception that 
we are not executing the law, then a lot of people get agitated 
and call.
    That said, we have moved forward, as I mentioned a little 
earlier, the State Department, some enhanced questions, etc., 
in terms of the normal visa process. In my case, looking very 
hard--and some of this is, by the way, a cultural change. 
Whether it is my people at the U.S. Citizenship and Immigration 
Services (USCIS) or the consular people, we are changing the 
culture to reflect the reality of security. That is to say, 
rather than the idea being bring in as many refugees as you can 
to meet some number set by the last Administration or bring in 
as many visas as you can, we actually now are changing the 
culture to say, look, if you want to come to America, you 
convince me you are who you are, and you are coming here for a 
period of time, and then you will go home, and you will not do 
anything wrong when you are here.
    In the case of refugees, same thing. I know you are a 
refugee, but you have to prove to me who you are and that you 
will come to the United States for all the right reasons. And, 
ultimately, if you stay, then you will assimilate into our 
society.
    But, the kind of things, I think, the studies worldwide and 
the studies throughout the regions about what is the best way 
to do this, I think I am restricted in that. But, it does not 
mean we are not thinking about it.
    Chairman Johnson. From my standpoint, I do not want you to 
feel constrained. I do not want you restricted. Maybe Senator 
McCaskill is the same way, maybe, at least lend that support 
from two U.S. Senators.
    Senator McCaskill. Yes, and I have looked briefly at the 
decisions, Secretary, and I do not see--I know the State 
Department is moving forward in terms of trying to prepare a 
report. And so, clearly, their lawyers are not seeing what your 
lawyers are seeing. And, specifically, in a couple of the 
orders, it is clear that you are not restricted in terms of 
moving forward with what I think your job is, regardless of a 
request by the Executive to pause. Really what this appeal is 
about is whether or not he has the right under the Executive 
Order to say certain people cannot come here during a period of 
time that you are preparing underlying policies. I cannot 
imagine anybody is going to argue with you about the fact that 
you should be preparing policies that will keep this country 
safe. we have now been paused--I mean, there has been plenty of 
time that was envisioned in the Executive Orders for those 
policies to be done.
    So, I would love further conversation with your lawyers 
that are telling you that you cannot begin to give us more 
clarity about what the extra vetting is going to be.
    Chairman Johnson. So, let us look on a bipartisan basis, 
working with the Department, and make sure that they are not 
restrained so they can move forward.
    Senator McCaskill. Yes, we would be glad to work with you 
on that.
    Secretary Kelly. At the risk of running through too much of 
a list here, we are doing some things. The examples I would 
give you is enhanced automated screening by USCIS, enhanced 
interviews, enhanced biometrics integration, enhanced data 
collection. So, we are doing some things.
    Senator McCaskill. That is great.
    Secretary Kelly. And, I could go on if you want, but there 
are more things here.
    Senator McCaskill. Yes, well, we can follow up together.
    Chairman Johnson. Let us work together on this and make 
sure we----
    Secretary Kelly. So, we have not stopped. We are just 
being, as I say, very cautious about not getting out in front 
of the courts that, I will genuflect to every day.
    Senator McCaskill. If you have done it, then the whole case 
is moot.
    Secretary Kelly. Right.
    Senator McCaskill. And, the President could move on and 
tweet about something else.
    Chairman Johnson. So, again, great Committee, 
bipartisanship, let us work together and----
    Secretary Kelly. Best Committee.
    Chairman Johnson [continuing]. Make sure that you can do 
your job.
    Again, Secretary Kelly, I think from every Member of this 
Committee, thank you for your service. It is not a job I envy, 
but thank you for doing it, and to all the members of your 
staff and the Department.
    This hearing record will remain open for 15 days until June 
21 at 5 p.m. for the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 12:07 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------     
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              



                                 <all>
</pre></body></html>
